<html>
<title> - A LEGISLATIVE HEARING ON H.R. 1461, THE ``VETERANS, EMPLOYEES, AND TAXPAYERS PROTECTION ACT OF 2017''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  A LEGISLATIVE HEARING ON H.R. 1461, THE ``VETERANS, EMPLOYEES, AND 
                   TAXPAYERS PROTECTION ACT OF 2017''

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        TUESDAY, MARCH 21, 2017

                               __________

                            Serial No. 115-6

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

      
      

         Available via the World Wide Web: http://www.fdsys.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-402                       WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83e4f3ecc3e0f6f0f7ebe6eff3ade0eceead">[email&#160;protected]</a>       
       
       
 
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRAD WENSTRUP, Ohio                      Member
JOHN RUTHERFORD, Florida             MARK TAKANO, California
JIM BANKS, Indiana                   LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                        Tuesday, March 21, 2017

                                                                   Page

A Legislative Hearing On H.R. 1461, The ``Veterans, Employees, 
  And Taxpayers Protection Act of 2017''.........................     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     3

                               WITNESSES

Ms. Kimberly Perkins McLeod, Acting Executive Director, Labor 
  Management Relations, U.S. Department of Veterans Affairs......     4
    Prepared Statement...........................................    26

        Accompanied by:

    Mr. Rondy Waye, Human Resources Policy Advisor, Office of 
        Human Resources and Management, U.S. Department of 
        Veterans Affairs

Ms. Shirley Parker Blommel, President, Local 390, St. Cloud VA 
  Health Care System, American Federation of Government 
  Employees, AFL-CIO.............................................     5
    Prepared Statement...........................................    27
Mr. Derk A. Wilcox, Senior Attorney, Mackinac Center for Public 
  Policy.........................................................     7
    Prepared Statement...........................................    29

                       STATEMENTS FOR THE RECORD

American Federation of Government Employees, AFL-CIO.............    32

 
  A LEGISLATIVE HEARING ON H.R. 1461, THE ``VETERANS, EMPLOYEES, AND 
                   TAXPAYERS PROTECTION ACT OF 2017''

                              ----------                              


                        Tuesday, March 21, 2017

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bilirakis, Wenstrup, Rutherford, 
Banks, Roe, O'Rourke, Takano, Correa, Rice, Walz.
    Mr. Arrington. The Subcommittee will come to order.

         OPENING STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    I welcome everyone here today to the legislative hearing on 
the bill I have introduced, H.R. 1461, the Veterans, Employees, 
and Taxpayers Protection Act of 2017, or the VET Protection 
Act.
    Before I recognize my friend and fellow Texan, Mr. Beto 
O'Rourke, for his opening comments, I want to briefly describe 
what the bill does and provide some context for its 
introduction.
    At the joint hearing the Subcommittee had with the 
Subcommittee on Government Operations of the Committee on 
Oversight and Government Reform, we learned in great detail 
about the use of official time within the Department of 
Veterans Affairs. At our hearing, GAO released their recent 
report on official time at VA, where they found that VA is 
still not accurately or sufficiently tracking how much time 
employees are using on official and that the data that we do 
have from the VA is unreliable at best.
    As I said at that hearing, this report begs the question: 
Are people taking advantage of the system? And I would conclude 
that most likely they are, because whether intentional or not, 
without a functioning system there is no means--consistent 
means to track official time, even if you wanted to.
    That is why my bill would require the VA to consistently 
track the use of official time and submit a report to Congress 
and the Office of Personnel Management on its use to address 
the issue raised by the GAO report. This reporting requirement 
would also bar VA from using ranges or estimates in their 
reporting. I think this provision and this change are 
critically important because as the old saying goes, ``you 
can't manage what you can't measure.''
    Another issue that was highlighted in our joint hearing was 
the amount of time that doctors, nurses, clinicians, and other 
employees who are critical to VA's mission, are spending on 
official time and union activities, as opposed to the job they 
were hired to do and the job that they are being paid to do by 
taxpayers. We learned that VA has doctors, nurses, medical 
assistants, addiction therapists, pharmacists, disability 
claims raters, senior raters, and the list goes on and on, 
serving on official time; many of them on a hundred percent of 
official time and many making over six figures, which is paid 
for, again, by the American taxpayer.
    This means we have hundreds, if not thousands, of VA 
employees spending part, and sometimes all, of their working 
day serving the union instead of directly serving our veterans; 
again, the job that they were hired to do.
    My bill would address this problem by prohibiting VA 
physicians, dentists, podiatrists, chiropractors, or 
optometrists from spending any of their time on union 
activities. It would prohibit any employee involved with direct 
patient care from spending more than twenty-five percent of 
their time on union activities and it would prohibit any VA 
employee from spending more than fifty percent of their time on 
union activities. Furthermore, the bill would prohibit the use 
of official time for political activities or lobbying.
    Now, I want to be clear. These provisions are not meant to 
completely eliminate the use of official time at the VA. As the 
amount of allotted hours in a union's official time bank would 
not change, but instead, this bill would bring common sense 
reforms to the use of official time and would ensure that those 
who are charged with providing care and services to veterans 
are fulfilling the VA's mission and doing their jobs.
    As I said at our hearing last month, the legal standard for 
official time is to use it on ``representational work'' that is 
``reasonable, necessary, and in the public's best interests.'' 
That is at the heart of the issue for me today in our 
discussions. I don't believe the average American would see 
doctors and nurses receiving a taxpayer-funded salary, 
especially with the context of our veterans and the current 
service to our veterans from the VA, as reasonable or as being 
in the public's interests.
    Additionally, my bill would add--would allow, rather, 
collective bargaining unit employees to join or leave the union 
at any point. Currently, collective bargaining agreements at 
the VA seem to be designed to make it nearly impossible for 
employees to stop paying union dues and nearly impossible to 
leave the union when they choose.
    For example, the VA's master contract with AFGE requires 
that the only time an employee can make a request to stop 
paying dues is during the ten-day period that annually 
coincides with them joining the union.
    VA's master contract with the National Nurses United goes a 
step further and limits their window to leave the union to the 
anniversary of their decision to join the union.
    Clearly, these restrictions are in place to do one thing 
and one thing only; limit the employee's freedom of choice--and 
I will make it two things--and generate revenue for the union.
    Finally, my bill would extend the probationary period for 
new employees to 18 months and would require that the manager 
make an affirmative decision that the employee has successfully 
completed their probationary period before becoming a full-
fledged civil servant with all of its protections.
    Members, I know many will say that my bill is anti-union or 
even anti-employee. Nothing could be further from the truth, as 
I do see that there is limited value in what the unions bring 
to the table, and I am not here to litigate the ability for 
Federal employees to unionize.
    I am, however, trying to restore public confidence in the 
Department of the Veterans Affairs by ensuring that taxpayer 
dollars and hard-working Americans--or of hard- working 
Americans, are focused on advancing the VA's mission. In the 
end, the VA and the status quo are not sacred, but our veterans 
are.
    I thank the witnesses for being here this afternoon. I look 
forward to your testimony and now I want to yield five minutes 
to my friend, fellow Texan, and Ranking Member Mr. O'Rourke.

       OPENING STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Mr. Chairman, thank you.
    I think the bottom line for me, and I would argue for us, 
as Members of this Committee and Members of the U.S. Congress, 
is to ensure the highest quality and timeliness in the care and 
services that we deliver to the veterans who have earned that 
care and services.
    If official time improves our ability to do that, then we 
should have official time. If it detracts from our ability to 
do that, we should not have official time.
    If we conclude that official time helps us to deliver 
quality care and services to veterans, then I think we have to 
ask ourselves what is the best way to organize that official 
time?
    And if we conclude that in some cases, having a hundred 
percent of an employee's day dedicated to official time because 
it improves the delivery of care and services to veterans is 
helpful, then we will support that, or I will support that. If 
we find that it does not, then I will not support one hundred 
percent of official time.
    And then the third category the Chairman mentioned, if we 
conclude that certain classes of VA employees should be able to 
participate in official time and that it is helpful in 
delivering care and services in a timely, quality way, then we 
should support that, and if we conclude that it does not, then 
we should not.
    I think we need the data and the facts to make informed 
decisions in every one of these areas, and so I agree with the 
Chairman, and I think with probably everyone on this Committee, 
that the VA's failure to measure official time effectively has 
put us at a disadvantage in answering these questions. And that 
is one of the first things that we need to be able to do, which 
is to measure; that which is not measured cannot be improved 
and we cannot make informed decisions without it.
    It is going to be hard for me to conclude beyond that, the 
value in these areas until we have the data and the facts, but 
I look forward to the testimony from this panel and we will 
reserve questions until after I hear from them.
    So, Mr. Chairman, thank you, and I yield back.
    Mr. Arrington. Thank you, Mr. O'Rourke.
    I want to now recognize our first and only panel of 
witnesses today. With us we have Ms. Kimberly Perkins McLeod, 
Acting Executive Director for Labor Management Relations at the 
U.S. Department of Veterans Affairs, and she is accompanied by 
Mr. Rondy Waye, a Human Resources Policy Advisor at the Office 
of Human Resources Management at the U.S. Department of 
Veterans Affairs. Welcome.
    We also have Ms. Shirley Parker Blommel, President of the 
Local 390 unit of the American Federation of Government 
Employees of St. Cloud VA Health Care System and Mr. Derk A. 
Wilcox, a senior attorney at the Mackinac Center for Public 
Policy. I want to thank you all for being here today.
    Ms. McLeod, let's begin with you. You have five minutes for 
your opening statement.

              STATEMENT OF KIMBERLY PERKINS MCLEOD

    Ms. McLeod. Thank you.
    Good afternoon, Mr. Chairman, Ranking Member O'Rourke, and 
other Members of the Subcommittee. Thank you for the 
opportunity to discuss H.R. 1461, entitled the ``Veterans, 
Employees, and Taxpayers Protection Act of 2017,'' which 
pertains to the use of official time and probationary 
employees.
    I am accompanied today by Rondy Waye, human resources 
policy advisor, in VA's Office of Human Resources and 
Management.
    VA generally supports H.R. 1461, but we have some concerns 
with the legislation. With regard to section 741, the inclusion 
of this recordkeeping requirement will result in increased 
costs in resources for the VA. The Department currently has the 
ability to electronically track union official time for 
employees in the VA Time and Attendance System, or VATAS, and 
is in the process of fully implementing the system with the 
projected completion date of July 2018.
    Using VATAS, the Department can now track the categories of 
official time in accordance with OPM's four categories, term 
negotiations, midterm negotiations, general labor management 
relations, and dispute resolution, similar to the way all other 
agencies track official time across the Federal government; 
however, section 741 would require the capture of additional 
information regarding official time which would require a 
revision to VATAS, as well as the use of additional systems, 
resulting in additional costs in order to capture the monetary 
and space aspects of the bill.
    Section 741 also calls for the collection and analysis of 
subjective data, requiring VA to determine the impact that 
granted official time has on its operations.
    Overall, to maintain the tracking and reporting of this 
administrative data total level of granularity required in this 
bill, VA would be required to create additional systems at 
significant cost. To reduce the cost burden, we ask that the 
Committee reconsider some of the granular reporting 
requirements in the bill and we would welcome the opportunity 
to work with the Committee to alleviate these concerns while 
achieving the important objective of increased transparency.
    With respect to section 742, VA does not oppose the time 
limitations established in the legislation, however, VA finds 
certain lobbying activities on behalf of VA, beneficial to VA 
stakeholders, the veterans. Indeed, veterans have benefited 
from union lobbying efforts in areas such as expansions of 
scopes of practice for nurses and pay and hiring flexibilities 
to provide expedited patient care.
    The Department is also generally in favor of the types of 
limitations on the use of official time for certain individuals 
set out in section 742. We would prefer that doctors spend all 
their work time caring for veterans; in addition, we think it 
is important for every employee to spend at least half of their 
work time performing management- directed tasks. Currently, 
however, the law does not allow us to limit official time to 
particular employees or classes of employees. If this bill 
passes Congress and becomes law, VA will have that capability.
    VA also notes that unless otherwise superceded by section 
742, the provisions in 5 U.S.C. 7131 continue to apply to 
certain mandatory official time. To the extent the intent is to 
supercede that provision, VA recommends clarifying language in 
section 742. We would be happy to work with the Committee on 
this language.
    VA does not have a position with regard to section 743, 
however, we propose that the bill include clarifying language 
regarding what termination means in the context of the bill. VA 
recommends that the term ``termination'' be clarified to mean 
the submission of an employee's SF-1188 to his or her servicing 
HR or payroll office.
    With regard to section 719, VA does not oppose this 
provision. We note that under 5 U.S.C. 7511, certain VA 
probationary employees are already entitled to appeal a 
separation action to the Merit Systems Protection Board if they 
have worked for the Federal Government for more than 12 months. 
The 18-month probationary period prescribed by this bill would 
not change this right.
    Consequently, to the extent that the intent is to curtail 
appeal rights during the probationary period, relevant changes 
should also be made to 5 U.S.C. 7511. VA would be happy to work 
with the Committee on this language.
    Mr. Chairman, this concludes my statement. VA looks forward 
to working with the Committee to provide technical guidance on 
those elements we have noted, may be of concern. I am happy to 
answer your questions.

    [The prepared statement of Kimberly Perkins McLeod appears 
in the Appendix]

    Mr. Arrington. Before we move to the next panelist, if you 
would indulge me, I failed to recognize the Ranking Member of 
the VA Committee, Mr. Walz--thank you for joining us today--and 
I want to yield as much time as you need to make comments.
    Mr. Walz. I'll wait until the end, Mr. Chairman. Thank you.
    Mr. Arrington. You sure?
    Mr. Walz. Yeah.
    Mr. Arrington. Okay. Thanks for joining us again and let's 
continue on with our panelist, Ms. Parker Blommel. You have 
five minutes.

              STATEMENT OF SHIRLEY PARKER BLOMMEL

    Ms. Blommel. Thank you.
    Chairman Arrington, Ranking Member O'Rourke, and Members of 
the Subcommittee, thank you for the opportunity to testify 
today.
    I come to work at the St. Cloud VA as an LPN in 2008 after 
working at several different private practices in rural and 
urban areas.
    I was elected president of Local 390 in 2014 and vice 
president in 2012. Our bargaining unit covers a wide range of 
positions including housekeepers, doctors, food service 
workers, therapists at the St. Cloud VA main campus and the 
CDOCs.
    After one year at the St. Cloud VA as a nurse working on 
the floor, I signed up to be a union member, went to meetings, 
and learned that I could make a difference. Also, my father and 
son have served our country overseas in the Army and I want to 
give back for all that they have sacrificed. I realized that 
getting involved with AFGE, I could help the front line 
employees learn how to work with management to improve veteran 
experience.
    Being a local officer has been very fulfilling for me and 
it has taught me it is not about, the union is right and 
management is wrong, but rather, that we have a shared goal in 
improving care. And when the union and management work 
together, we can move towards the same positive outcome.
    When I first came as vice president of the union, I was 
only on fifty percent official time. As the need increased for 
us to be present, management frequently pulled me from my 
regular duties. As I was elected local president, it was clear 
that management's expectation was the president would be 
working only administrative hours. Management likes the 
continuity of having me work one hundred percent official time 
so I am available when they call a meeting, schedule a 
grievance hearing, or when they have an employee crisis.
    In 2015, veterans' employees went outside to complain about 
the lack of providers and the increase primary care panels. 
Congressmen Walz and Emmer came to our facility after the union 
contacted them. The union coordinated a meeting with the 
congressmen and the employees where they could share their 
concerns without fear of retaliation.
    After mediation, we now have a leadership in our facility 
who is willing to work closely with the union to address the 
issues.
    Another example is when OSHA inspectors came to our 
facility in 2013 and found a long list of violations; for 
instance, when staff did not always have the right equipment to 
avoid bloodborne injuries when handling sharps.
    As the union representative, I worked with OSHA and 
management to ensure the violations were corrected and made 
sure staff had the correct training so our environment is safer 
for our employees, also for our veterans we serve.
    Every day I go to bat to serve--to work for our employees 
to resolve differences with management as quickly as possible. 
One hundred percent of our housekeepers are combat veterans and 
they play a critical role in patient care by keeping operating 
rooms and other areas free of infection; many of these veterans 
suffer from other combat-related injuries.
    When these veterans came to the union for help, we 
explained their rights under Family Medical Leave Act and we 
reached out to management to soothe the tensions that asked for 
greater understanding. These employees are combat veterans who 
are America's heroes. They deserve a job and they deserve to be 
treated with dignity.
    My final example was just recently a new directive on 
Querying State Prescription Drug Monitoring Program that came 
out. This has a big impact on the working conditions. Providers 
will have to begin to query when veterans get narcotics or 
change in prescriptions.
    The union worked with management to determine which 
positions are best-suited to assist with the queries. We also 
need to continue to work together to make sure providers 
understand who should be delegated this task and the process 
that needs to be completed.
    If H.R. 1461 were to become law, I would only be able to 
spend a quarter time fulfilling my duty of fair representation. 
The knowledge base and effectiveness would be different, 
depending on who was on official time that day. There would be 
no consistency. This would have an adverse impact on our 
veterans, our employees, and as well as management.
    We achieve more consistency and efficiency when labor and 
management are working with the same knowledge base among 
individuals. It is a faster, smoother process when we have one 
person working full-time on representation, rather than four 
people at twenty-five percent.
    If you don't have the right person at the table who can 
actually make the binding decisions, then everything will get 
delayed.
    This concludes my statement, and I would be happy to answer 
any questions you have.

    [The prepared statement of Shirley Parker Blommel appears 
in the Appendix]

    Mr. Arrington. Thank you, Ms. Parker Blommel.
    And finally, Mr. Wilcox, I will now recognize you for five 
minutes.

                  STATEMENT OF DERK A. WILCOX

    Mr. Wilcox. Good afternoon, Chairman Arrington, banking--
Ranking Member O'Rourke, and Members of the Committee. Thank 
you for holding this hearing and giving me an opportunity to 
discuss this issue of the use of official time at the 
Department of Veterans Affairs.
    My name is Derk Wilcox; I am the senior attorney at the 
Mackinac Center for Public Policy. The Mackinac Center is a 
nonpartisan research and educational institute, dedicated to 
improving the quality of life by promoting sound solutions to 
public policy questions.
    I would like to note that as a practice attorney, I have 
had the honor of representing many veterans as their court- 
appointed counsel in mental health, guardianship, and 
conservatorship hearings. I have spent many hours at the VA 
facility in Ann Arbor, Michigan, working with the staff and 
veterans there.
    The VA hospitals are beset with many problems, as they try 
to meet the needs of our veterans and official time is added to 
those problems. Official time is time spent by Federal 
employees, who are paid to perform representational work for 
their union, instead of their regularly assigned work.
    In the recent past, this body has heard testimony from the 
Office of Personnel Management, estimated that in 2012, the 
most recent year for which data is available, employees at the 
VA used just over one million hours on official time. The 
estimated cost to the VA was just under 47 million.
    The GAO has criticized the OPM's method of accounting, 
saying that it undercounts the amount of salaries devoted to 
official time. Testimony before this Committee on February 
16th, 2017, also criticized the OPM methodology, because it 
failed to account for office space, equipment, phones, travel 
time, and other factors.
    But what the GAO did not look at is whether or not the 
official timekeeping itself is flawed. From my investigations, 
it appears that use of official time is underreported. I 
examined cases brought before both, the Department of Labor's 
Employees' Compensation Appeals Board and the Federal Labor 
Relations Authority.
    These cases involved the use of official time by VA 
employees and official time was an essential part of these 
cases. In so doing, I found several cases where more time was 
devoted to the union's activities, than had been reported as 
official time, as set forth in my written statement.
    Perhaps the most egregious was an FLRA case out of the 
medical center at Leeds, Massachusetts. A clinical 
neuropsychologist was also the union president. She was allowed 
to spend sixty percent of her work week on official time; 
however, an arbitrator found that because of her official time, 
it was an unfair labor practice to require her, as part of her 
performance appraisal plan, to see any patients per week 
because ``official union duties placed time constraints on the 
grievance clinical schedule during the work week.'' It was 
unfair to require her to see as few as one patient for testing 
per week; in short, what was recorded as sixty percent official 
time effectively became a hundred percent official time.
    The enactment of H.R. 1461 could provide the necessary tool 
to properly count the hours and total cost of official time at 
the VA; likewise, it was restrict official time activities so 
that physicians, like the psychiatrist in the case above at the 
Leeds facility, are using their skills and expertise on the 
treatment for which they are trained and hired and not for 
union activities.
    Section 741(a)'s requirement that time be accounted for 
accurately and to a specific degree, should eliminate the case 
of duty time being used for union activities outside of 
official time, as the aforementioned cases found.
    Section 741(2)(E) and (F) should correct the flaws pointed 
out in the February 16th CEI testimony before this body which 
pointed out that official time was not accounting for first 
thing benefits, office space, or other facilities used for 
official time.
    Section 742(a) correctly restricts official time for being 
used for political activities or activities related to 
lobbying.
    In summary, when cases have been looked at in-depth, it has 
been shown that employees have been using more time for union 
activities than has been allocated to them as official time. 
H.R. 1461 would appear to be a necessary first step to properly 
track how much time VA employees spend on official time, 
account for the true costs, and restrict the improper uses of 
official time.
    Following the enactment of H.R. 1461, we should get a more 
complete picture of the extent of the problem and better enable 
managers to effectively use the resources available to help our 
veterans.
    I would like to thank this Subcommittee and for this 
opportunity and welcome any questions.

    [The prepared statement of Derk A. Wilcox appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Wilcox.
    I now will yield myself five minutes for questions and let 
me start by saying that I think we would all agree that the 
most-important asset to the VA in its accomplishing its mission 
to serve veterans, like most organizations, would be its 
people. And I have been in management positions; I have managed 
in government, I have managed in the private sector, and I 
can't imagine that you could effectively manage your personnel 
assets when you have people that are spending a hundred percent 
of their time on union activities or even fifty percent of 
their time on union activities.
    And I agree with the Ranking Member that, you know, our job 
is to make sure that you guys have the tools and the VA 
leadership has the tools to maximize their effectiveness and 
that where there are distractions, we need to root them out 
because we all want desperately to make good on our promises to 
our veterans.
    So, with that, let me ask you, Ms. Parker Blommel--I'm 
sorry--Blommel Parker--I apologize--what is the mission of the 
VA, just in your own words? I am not looking for the textbook 
answer.
    Ms. Blommel. The mission of VA is to serve our veterans.
    Mr. Arrington. Yeah, hit the button. There you go.
    Ms. Blommel. The vision of the VA is to serve our veterans. 
They are our heroes. They have sacrificed their lives for us.
    Mr. Arrington. And then your job, when you applied for the 
job, and you interviewed for the job, and ultimately got the 
job, what is the mission of your job, specifically, to advance 
that overarching goal of serving our veterans?
    Ms. Blommel. When I was hired for the VA--I am a licensed 
practical nurse; I have been there nine years--and my mission 
is to take care of our veterans, to honor them for the 
sacrifice, to take care of them physically and mentally, 
however it needs to be done.
    Mr. Arrington. So, the three-part legal test, as I 
understand it, for appropriate use of official time is that it 
is necessary, reasonable, and in the public's best interests.
    You were hired to provide health care services to veterans, 
to advance the overall mission to serve veterans. How can you 
spend a hundred percent of your time--and with all due respect; 
I know there are more people that are spending a hundred 
percent of their time than you--but give me your perspective on 
how you can achieve that desired outcome you described as your 
mission, and that which you are paid to do by taxpayers, while 
you are a hundred percent active on official time advancing 
union objectives.
    Ms. Blommel. Being on a hundred percent time, what I do, I 
take care of our veterans. First of all, when a directive or a 
policy comes forward, we have the opportunity to look at that 
and see what work needs to be done. I take the policy, I look 
at it, I go to the front line staff and I say, this is the 
policy that is coming out. How can we do this? How can we make 
this work the best? Because they are the subject-matter 
experts.
    And I get that information and I go back to the meeting or 
the Committee and say, this is what is going on, this is what 
is happening, how can we do it better? We got this directive 
from the VA; let's make it right.
    Mr. Arrington. Ms. McLeod, is--we put a standard in the 
legislation of no more than fifty percent of their time. Do you 
get--do you have managers express their frustration with their 
ability to manage their operation, whatever component of the 
VA, on account of this runaway official use of official time?
    Ms. McLeod. Certainly, we have managers who have expressed 
frustration with, you know, official time. We have also 
certainly had managers, and the GAO report notes, we have had 
managers who appreciate certain employees being on official 
time for the reasons that that witness discussed. So, we do see 
both sides.
    Mr. Arrington. Let me ask you this, is it necessary for 
employees to spend a hundred percent of their time? Is it 
absolutely necessary for employees to spend a hundred percent 
of their time on union activities?
    Ms. McLeod. The Department does not think so. We support 
the legislation.
    Mr. Arrington. Do you believe it is necessary to spend 
fifty percent of your time? Is it necessary to spend fifty 
percent of your time on union activities? It is my last 
question; I will let you answer it.
    Ms. McLeod. Well, the Department supports the legislation, 
and so to the extent the legislation caps it or limits it to 
fifty percent, no more than fifty percent, the Department 
supports that. And we don't believe that any time over fifty 
percent would be reasonable, necessary, or in the public's 
interest.
    Mr. Arrington. Okay. I yield to the Ranking Member for five 
minutes for questions.
    Mr. O'Rourke. Great. Thanks, Mr. Chairman.
    I ask unanimous consent to submit two letters; one from 
National Nurses United, dated March 20th, 2017, and the other 
from Michelle Washington, Ph.D., psychologist, AFGE member.
    Mr. Arrington. Without objection.
    Mr. O'Rourke. So, a couple of questions here. First, some 
observations. I heard Ms. McLeod acknowledge the value of 
official time and she even went further and talked about the 
value of bargaining unit employees using official time to lobby 
Members of Congress. And you cited, helping to inform Members 
of Congress about expanding scope of practice and helping to 
inform Members of Congress about the value of flexibilities in 
hiring at a time that we're 43,000 clinical positions short and 
we desperately need those providers, psychologists and 
psychiatrists primarily, in community like El Paso, Texas. So, 
I appreciate you, from the VA, underscoring the importance.
    Answer this question for me, when we hear from our AFGE 
president in St. Cloud that the expectation was that, from 
management, that she always be available to expedite the 
process to better serve veterans and ensure that management is 
effectively coordinating with the employees to serve those 
veterans, what is your argument against hundred percent? That 
is management asking for a hundred percent, not AFGE, and so 
what is your argument as somebody who oversees management?
    Ms. McLeod. The Department believes that, you know, at 
certain levels, official time is valuable and so--
    Mr. O'Rourke. But I am asking about a hundred percent, so 
answer that question for me, please.
    Ms. McLeod. I mean, I think to the extent that the 
Department or her management is requesting her assistance to 
perform official time or union representational activities, 
that local manager knows best and they are requesting the time.
    Mr. O'Rourke. So that local manager knows best and is 
requesting a hundred percent time, and yet, you are supporting 
a cap at fifty percent. So those two do not seem to match up.
    So, if you see the value and would like to give discretion 
to that local manager who understands the value in hundred 
percent official time in that VA, why would you support 
legislation that would remove the ability of that manager to do 
what is best for the care for those veterans, based on 
coordinating with the employees who deliver it?
    Ms. McLeod. I can only say the Department supports 
legislation and the limitations that are placed on it.
    Mr. O'Rourke. And then I have a question on the other side 
of this for Ms. Blommel, and I want to thank you for traveling 
here to Washington DC and being before us. I have got to say 
that the Chairman's argument that when we have a time of 
clinical positions that are vacant, that, you know, having a 
doctor at a hundred percent and not having them perform some 
clinical function is pretty persuasive.
    Make the argument to me that those primary or those care 
providers, who are on the front lines of delivering that care, 
should not have some part of their day devoted to care 
delivery.
    Ms. Blommel. Most physicians, even if they have 
administrative jobs, they do have to have care--have to have so 
many people on a panel. So, most of them are not a hundred 
percent, because they have to care for veterans.
    The majority--why you have a physician that wants to be in 
the union is because they have a greater understanding of what 
is happening on that side and they can bring a wide range of 
talent and knowledge to the union and for management.
    Mr. O'Rourke. Okay. I think you can tell where I am getting 
to. I see the value in official time. I see the value in a 
hundred percent official time, at least as management has 
conveyed it to us, where they want to more effectively 
coordinate with the staff that is delivering that care.
    I also see an argument where we have shortages in clinical 
positions that you might want to have some controls on that. 
So, I am trying to find the ideal place for us to be.
    Going back to Ms. McLeod, 2018 July to get this stuff done 
is--I mean we are at the end of this session of Congress by 
then, functionally. Our ability to conduct oversight on what 
you have implemented before the next Congress kicks in is gone.
    Why can't you do that sooner? Why can't we have the 
information this summer?
    Ms. McLeod. The Department, we are about sixty percent, you 
know, in, in terms of fully implementing VATAS and we are 
moving as quickly as we can, trying to make sure that as we 
implement, the system is working appropriately and people are 
trained.
    Unfortunately, I am not responsible for making sure that is 
fully implemented, but we are moving as rapidly--
    Mr. O'Rourke. Who do we talk to--who do we talk to if you 
are not the person responsible? How do I find out how to get 
that information sooner? It just does not seem acceptable to me 
to wait until July 2018--
    Ms. McLeod. Office--
    Mr. O'Rourke [continued]. --you know, otherwise, we are 
going to move forward with a bill that I think is very well- 
intentioned from the Chairman's standpoint; I think he wants to 
do the right thing for veterans, but from my standpoint, it 
does not have the data or the information to support the 
conclusions. So, you know, you are not giving me much to work 
with here.
    I yield back to the Chairman.
    Mr. Arrington. Thank you, Ranking Member.
    And I want to recognize or just acknowledge that the 
Chairman of our VA Committee is here as well, but I am going to 
yield to Mr. Rutherford, for five minutes for questions.
    Mr. Rutherford. Thank you, Mr. Chairman.
    And I will direct my first question to Ms. Perkins. If you 
could, in your written statement, it says, currently, however, 
the Federal Service Labor-Management Relations Statute does not 
allow us to limit official time to particular employees or 
classes of employees.
    Can you tell me where that excluding language is within the 
Federal Service Labor-Management Relations document?
    Ms. McLeod. You are not going to find it necessarily in the 
statute, but the Federal Labor Relations Authority that 
interprets the statute through case law, they have found that 
we can't limit the employees or the occupations that those 
employees sit in, in terms of providing official time.
    Mr. Rutherford. So, there is some finding by them?
    Ms. McLeod. There are a number of cases that discuss that 
you can't limit who those individuals are who serve; those are 
elected positions through the union and that determines, 
generally speaking, who is on a hundred percent or somewhere 
near that.
    Mr. Rutherford. Okay. However, you go on to state also, 
that if this bill passes Congress and becomes law, you would 
have that ability.
    Ms. McLeod. That is correct, sir.
    Mr. Rutherford. Okay. So, we need to make sure that we do 
put that enabling language in the bill, Mr. Chairman, so that 
we have that right or the VA has that right to limit those 
positions.
    Next, I would like to ask Ms. Blommel--am I saying that 
right?
    Ms. Blommel. Yes, that is right?
    Mr. Rutherford. Thank you.
    Ms. Blommel. You mentioned the directives that come down 
that management--or official time is used to help management 
carry out directives that come down.
    Can I ask, what does management do, then?
    Ms. Blommel. What management will do is they will get the 
new directive from the VHA. They will read it over and then 
they will contact the president of that local and they will 
forward the directive to me and I have the opportunity to read 
it. We gather at a meeting and we go through it, pretty much 
line by line, of the changes of work condition.
    The example they gave before was the prescription--is that 
the physicians now have to query the veterans to make sure that 
they do that, but they can also select a delegate. The question 
is, who is the most-appropriate delegate?
    In the directive, it says it could be also a licensed--an 
unlicensed person. RVA does not find that appropriate. We find 
that having a licensed nurse be the most appropriate. So, it 
was working that out; how this information--and how we are 
going to do it and how we are going to get the training to the 
physicians and the correct people.
    Mr. Rutherford. So, are there not VA managers who are 
making those decisions?
    Ms. Blommel. The direct--yes.
    Mr. Rutherford. I mean, I am simply trying to find out who 
is running the VA; is it union members or is it VA management?
    Ms. Blommel. We have managers who are--who work for the VA, 
yes, sir.
    Mr. Rutherford. Okay. You haven't--but is management union 
members also?
    Ms. Blommel. No, sir.
    Mr. Rutherford. Okay. Thank you, Mr. Chairman.
    I yield back my time.
    Mr. Arrington. Thank you, Mr. Rutherford.
    And now, I will yield five minutes to Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    Ms. McLeod, H.R. 1461 is predicated on the notion that 
allowing employees to be on a hundred percent official time is 
getting in the way of the veteran's access to health care, yet, 
one of the criticisms of the GAO is--the report, is that the VA 
itself doesn't really have a firm accounting for official time, 
right?
    And because we don't have it, my question is, I don't 
understand how we can come to the conclusion that official time 
is impeded or not. I mean I am having a hard time how we get to 
that conclusion.
    My--but isn't there--I mean, I have a hard time thinking 
about the 45,000 current vacant positions at the Veterans 
Health Administration. I mean, I just think compared to the 
small number of employees that we have on the official time, 
that the 45,000 vacancies pose a far, far greater, I think, 
impediment to VH--to giving appropriate health care to our 
veterans.
    So, my thing is, I want to ask you, do you have any idea of 
how many employees that Ms. Blommel represents in her area?
    Ms. McLeod. No, I don't know how many employees she 
specifically represents now. I know that approximately 285,000 
of our employees are bargaining unit employees, but that is 
stretched across all of the unions that represent them.
    Mr. Takano. And do you know how many meetings she might 
attend every day?
    Ms. McLeod. I do not.
    Mr. Takano. I mean, might there be a cost savings that 
accrues by having a professional, having someone on official 
time actually try to resolve these disputes, than to have 
someone else do it, I mean, to have to hire extra people to go 
solve these disputes?
    Ms. McLeod. Sir, we haven't looked at the cost-saving 
aspect of the time that employees spend on official time. I can 
only give you the numbers themselves, but we have never looked 
at what the cost effect is of that.
    Mr. Takano. Don't you think we might want to do that before 
we move forward with a bill that blanketly says that a hundred 
percent official time is bad, without knowing all the facts, 
without knowing whether or not there might be a cost savings?
    Ms. McLeod. I believe a portion of this bill does require 
us to take a look at some pieces of that; the amount of 
benefits and costs and salary for each official time employee 
and what that is for the agency. So, we would be looking at 
that as part of the reporting requirements.
    Mr. Takano. Well, you know, I am concerned that with the 
hiring freeze and the shortages, the attrition rate, the--you 
know, the GAO tomorrow is going to testify about the VA's 
limited HR capacity. Currently, there is a twelve percent 
attrition rate at VA's HR workforce that is being caused, in 
part, by unmet HR staffing targets, contributing to increase HR 
workloads and staff burnout.
    Additionally, HR occupations are not exempt from the hiring 
freeze and the GAO believes that a prolonged freeze could 
further erode the VA's ability to provide HR services.
    Employees who are on official time solve workplace disputes 
and resolve issues between front line employees. In light of 
this shortage and attrition rate, it would seem to me that 
there is probably even maybe a greater demand, but we don't 
know that because we don't have accurate statistics or we don't 
have a study to know whether or not there might be a cost 
savings, especially in this current environment.
    Ms. McLeod. We don't know.
    Mr. Takano. Ms. Blommel, whistleblowers, don't they 
especially often need people on official time? They are 
reluctant to come forward without having an official time VA 
employee be by their side; isn't that right?
    Ms. Blommel. That is correct. A lot of people do come 
forward. They come to the union because of concerns and we help 
direct them to the right way to get that protection of concerns 
of a veteran or a policy.
    Mr. Takano. So, an arbitrary cap at fifty percent might end 
up unresolved or whistleblowers may not have access to someone 
who will stand by their side if they are needed?
    Ms. Blommel. That is correct. We are very instrumental with 
the staff. They come to us. A lot of times they will come to us 
before going to management, because they have concerns and they 
don't want their--to be known that they are coming forward. And 
we just give them the support to go forward.
    Mr. Takano. Well, thank you. My time is up.
    Mr. Chairman, I yield back.
    Mr. Arrington. Thank you, Mr. Takano.
    And now, I will yield five minutes for questions to Mr. 
Correa.
    Mr. Correa. Thank you, Mr. Chairman. First of all I want to 
thank you for bringing forward this piece of legislation. The 
timing couldn't be better. As I was listening to testimony of 
our witnesses I noticed Ms. Kimberly Perkins McLeod, our acting 
Director, stated she supports the legislation, yet at the same 
time she had some concerns regarding some definitional issues 
and other issues in the bill. And I would say, Mr. Chairman, 
that maybe this legislation might need a little bit of 
wordsmithing and some work to make sure that what we mean and 
what we say and what is written is actually consistent, so to 
speak.
    Again, the issues you are touching upon here I believe are 
important ones, which are taking care of veterans and making 
sure we have an efficiently run VA. And you want to make sure 
that you reduce the possibility of unintended consequences. 
Therefore, I would ask you to take heed to Ms. Perkins McLeod's 
comments. And before we move the legislation forward I would 
ask you to work with some of the witnesses to make sure that 
this is some legislation that does exactly what you, Mr. 
Chairman, intended to do. Thank you.
    Mr. Arrington. Our Ranking Member of the VA Committee, Mr. 
Walz, I yield to you for five minutes.
    Mr. Walz. Thank you, Mr. Chairman. And thank you all for 
being here. I think the first thing is that we are starting out 
with the assumption that union time is something separate than 
trying to improve the process for veteran care. That's not the 
case. And I heard some of the things we are saying, well, if 
you are lobbying on time. I would argue that Ms. Blommel is 
here today lobbying. But this is helpful for us to get at the 
heart of how we fix veterans' issues. So it is not always as 
simple as it is made out to be.
    And I would ask first to just look at this from this 
perspective: we are here to serve veterans. And I am thinking 
about this as a veteran. The Army and the taxpayers paid me to 
shoot artillery. That was my job, that is what I should be 
doing. If I were not shooting artillery, if you were not being 
an LPN, was I not adding anything to the Army? So what ended up 
happening was as I became more efficient at shooting artillery, 
I ended up being a sergeant major. The management is the 
officers and the colonel would give his directive.
    My job was to go down to make sure all of the other folks 
firing artillery were able to do it efficiently, safely and 
accurately to fulfill their mission. For the last five years of 
my career, although I was supposed to be the best artilleryman 
in the unit, I never fired artillery. But I made sure all those 
other people could do it. Without that ability, the colonel 
would have to come down through the chain of command and go to 
each of them.
    And the reason this is an HR perspective is, is the people 
that actually have to deliver it will sometimes tell you, sir, 
with all due respect, this directive will not work and it 
imperils our patients. So that flow of information back up that 
is considered union time is trying to figure out better ways, 
just like sergeant's time, to figure out how to make us more 
efficient to deliver the care.
    So the argument that we are making without the data that we 
are instantly more efficient without having them there, I think 
is specious at best. And as you said, you got asked, Ms. 
McLeod, about how many people Ms. Blommel had. I realize that 
that is not--and that question is asked just point out--and Mr. 
Takano is exactly right, that you don't know in that case, nor 
should you know. It is not to jam you up. It is the question of 
even if they could say that she represents 1600 people and know 
how many meetings she had, you are making an arbitrary decision 
across the spectrum when wouldn't it be best for local 
management and HR personnel and management to do that, Ms. 
McLeod?
    Ms. Perkins McLeod. Sir, I think there is an opportunity 
here even with the legislation for managers to take a look at, 
you know, what amount of official time is reasonable, necessary 
and in the public's interest. I mean the limitations here are 
with respect to certain occupations, but it does not completely 
limit, you know, these individuals' ability to perform union 
representational activities. And it is still the management and 
the local manager's responsibility to make that decision.
    Mr. Walz. What if we find out we need more official time?
    Ms. Perkins McLeod. Sir, there is also--by the way, this is 
written, there is certainly still an opportunity there to 
provide additional official time to the extent it is 
reasonable, necessary and in the public interest.
    Mr. Walz. Ms. Blommel, do you keep track of your official 
time?
    Ms. Blommel. Yes, I do.
    Mr. Walz. How do you do it?
    Ms. Blommel. I do it--I have a paper copy that all of my 
union people that have any time in the union, and we forward 
that to HR at the end of the month, we do it monthly.Mr. Walz. 
Ms. McLeod, what does VA do with that then? She kept track of 
it, she wrote it down what she is doing. What do you do with 
it?
    Ms. Perkins McLeod. Each of those local HR offices, they 
provide that information to my office on a yearly basis to 
Labor Management Relations. And we provide that information 
back to OPM when they make their data call to all the executive 
branch agencies.
    Mr. Walz. So it is collated. Whose fault is it if it is not 
being kept, the idea that we don't know? Would you say it is 
the employee's fault, was it Ms. Blommel's fault?
    Ms. Perkins McLeod. Sir, we keep the information. Now, the 
way that we have received it in the past has been through 
different methods. But in large part we believe that most of 
the information we have is pretty accurate. We are just going 
to a new system that will ensure its accuracy.
    Mr. Walz. Okay. Ms. Blommel, have you ever seen anybody 
abuse official time?
    Ms. Blommel. No.
    Mr. Walz. What would you do if they did?
    Ms. Blommel. I have--I am very rigid about official time. I 
have had people that I have felt maybe might not have taken 
their 30 minutes. I will talk to them, I will counsel them. And 
I have also, with having--in regards to maybe if I think it is 
inappropriate I will ask them to step down. I have no problem 
doing that. This is a trust that we have and we have to honor 
that.
    Mr. Walz. Am I right that your father and your son are both 
veterans?
    Ms. Blommel. That is correct.
    Mr. Walz. Do you feel like if they came to your hospital, 
that you, in your current position, would be serving them well 
with what you are doing or could you do it better elsewhere?
    Ms. Blommel. They would come to our hospital. My father did 
and my son is a current at St. Cloud VA.
    Mr. Walz. And you in official time are improving their care 
in your mind?
    Ms. Blommel. Yes, I am, sir.
    Mr. Walz. I yield back.
    Mr. Arrington. Thank you, Mr. Ranking Member. And we will 
go for round two here for anybody that would like to stay and 
can stay. I am thinking as you are commenting on these 
questions what it would be like if I brought you to a town hall 
meeting in Big Spring where they have a large veteran 
community, they have a VA hospital, and I introduced you as 
somebody that was paid to be a nurse to provide care for our 
veterans, but now you are spending 100 percent of your time on 
union activities, then I would proceed to say, but wait a 
minute, before you pick up the rocks, the law allows her to 
spend some of her time as a VA tax paid employee on union 
activity, but it has to be reasonable, it has to be necessary 
and in the best interest of the public.
    What would you say to that group of people if I brought you 
with me to Big Spring next time I get out in the district about 
why you do what you do and that it is justified as necessary 
and reasonable?
    Ms. Blommel. Well, I would love to go with you to Big 
Spring and have that discussion at the town hall. First of 
all--
    Mr. Arrington. Can I hide behind the podium when I ask that 
question?
    Ms. Blommel. Sure. One of the reasons, you know, I would 
really say to that crowd, and I have gone to town halls, is 
that I am there for them. I may not be doing the hands on 
directly, but indirectly I am making sure that they have the 
best instruments, the best people doing the job. You know, I 
can help make sure that we have the policies the way--
    Mr. Arrington. Ma'am, how are you advocating for the 
veterans to make sure they have the best people and the best 
instruments?
    Ms. Blommel. I was going to--I have the opportunities to go 
to these meetings. An example, we have--
    Mr. Arrington. You know what, I don't have a lot of time 
here. So let me--what the veterans need is to see a doctor or a 
nurse or a health care professional. They're waiting way too 
long. I think if you ask the veterans they would say just let 
me see a health care provider because I am sick. And I don't 
know that they would say and I don't believe they would agree 
that 100 percent of your time being spent when you are a health 
care provider on union activity is reasonable, necessary and in 
the best interest of the public. I don't believe that. I 
haven't met one, not one, that says that. So how many 
bargaining union employees are there at the VA roughly?
    Ms. Perkins McLeod. Roughly 285,000.
    Mr. Arrington. And it is my understanding that the bank of 
hours is four hours per bargaining unit employee roughly; is 
that correct?
    Ms. Perkins McLeod. Roughly.
    Mr. Arrington. So with all those employees, 285- bargaining 
union employees, how can anybody--well, let me just ask the 
questions, just yes or no, with 285,000 employees do you truly 
believe, we will start over here and work our way across, do 
you believe, Mr. Wilcox, that it is necessary for somebody to 
spend 100 percent of their time, that they couldn't possibly 
spread out 25 percent among the 285,000 employees; is that 
necessary?
    Mr. Wilcox. I would not say so, sir.
    Mr. Arrington. Do you believe it is necessary?
    Ms. Blommel. Yes, I do.
    Mr. Arrington. Ms. McLeod?
    Ms. Perkins McLeod. No.
    Mr. Arrington. With 45,000 vacancies and the stories that 
are more than disheartening, they are shameful, and the wait 
times, and the lack of access to care that our veterans get, 
are you telling me that somebody, especially somebody that is 
in a health care provider position, working 100 percent of 
their time on union activities is reasonable, in the best 
interest of the public? In that scenario do you believe it is 
reasonable and in the best interest of the public?
    Mr. Wilcox. No, I wouldn't find that to be reasonable or in 
the best interest of the public.
    Mr. Arrington. Do you think it is reasonable and in the 
best interest of the public with 45,000 vacancies, long wait 
times and lack of access to care for our veterans that you are 
spending 100 percent of your time on union activities?
    Ms. Blommel. Yes, I do.
    Mr. Arrington. You think it is reasonable?
    Ms. Blommel. What I think is reasonable is that I am doing 
it and we are not pulling different people from different areas 
to do it and then we are disrupting care. I can tell you that 
what I have just recently done in mental health is where they 
came up with a policy where they wanted to remove two triage, 
mental health triage, nurses and only use one, and use an LIP, 
which is a licensed independent provider. But--
    Mr. Arrington. I would feel more honest with the taxpayers 
if we redefined your position and made you apply for a full-
time union advocate position than to do what we are doing here. 
It just, it doesn't feel right. I am out of time so I am going 
to yield now to Ranking Member O'Rourke for five minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman. I want to make sure 
that we are being accurate with the words that we are using. To 
be clear, official time is time that is spent improving the 
quality and efficacy and timelines of care and services to 
veteran. Union time or union activities are things that help 
the union. And you can not use official time on behalf of the 
union. And some folks on the Committee have used those two 
phrases interchangeably. They are not the same.
    I think we have to start with the fundamental question: is 
official time valuable for veterans? If it is not, I say let us 
do away with it now. Let us not even bother with counting it or 
qualifying it or determining what percentage of which employees 
can spend on official time. If it is not helpful, let us not do 
it. But I think that employees who works for the VA agree that 
official time is valuable.
    And the VA itself brought forward examples of where 
official time has improved the quality and timeliness and level 
of care delivered to veterans. So for me that question is 
settled. And there are--when we had our oversight hearing last 
month there were other examples given. For example, mental 
health care treatment regimens that because of the coordination 
with AFGE they were able to add substance abuse counseling. 
Having just visited Big Spring and where we have some El 
Pasoians who are receiving treatment and seeing the great care 
that they told me they were receiving themselves from those 
bargaining unit employees I am convinced that there is value 
and efficacy. But I, you know, to be intellectually honest I 
want to make sure that I understand this from a fact based and 
data based perspective. And because the VA has failed in 
effectively measuring and reporting this back to Congress, we 
are unable to do effective oversight.
    And so I ask through Ms. McLeod that someone from the VA 
who can answer this question and is in charge of this come 
before this Subcommittee or the Full Committee to tell us why 
they can not deliver this data to us sooner, like this summer, 
instead of later, like next summer. I think that is issue 
number one.
    And issue number two, and I ask AFGE to come back to us 
with a compelling answer, does it make sense at a time of 
clinical shortages at the VA to have high demand providers have 
100 percent of their time devoted to official time. The answer 
may be yes. You made a great case from the perspective of the 
St. Cloud VA management that they did not want to talk to 
someone 10 percent of the time and another person 13 percent of 
the time. They wanted to be able to go to you 100 percent of 
the time and that ensure that they are more effective in 
delivering high quality timely care to veterans.
    And if AFGE can make a compelling case that it should in 
some cases be a physician who does that, then make that case to 
us. I want to start and end with what is best for veterans. And 
if you convince me that official time, 100 percent of official 
time in some cases and 100 percent of the official time of a 
practicing physician is in the best interest of veterans, I am 
going to go to the mat for official time under those 
circumstances. If you can not, then I am going to be more open 
to changes to the system that we have today.
    So I think that is what we are all looking for as Members 
of the Committee. But I would caution my colleagues in rushing 
to any judgment or in passing a bill that even the VA, at least 
the representative from the VA today, cannot defend. Even 
though you say you support it, you also acknowledge that in the 
case of St. Cloud and in other areas management has found value 
in 100 percent of time. And yet the VA's position is that they 
support the Chairman's 50 percent cap. Those two things do not 
add up. And so we need to talk to someone or hear from someone 
who can make the case to us or support either one of those.
    So I still need some more information, Mr. Chairman, before 
I think I can make an informed decision on this bill. But I 
appreciate your effort in writing it and trying to address an 
issue that is of importance to the Committee. And with that, I 
yield back.
    Mr. Arrington. Thank you, Mr. Ranking Member. Very good 
remarks. And I am now going to yield to Mr. Rutherford. Five 
minutes in addition for questions.
    Mr. Rutherford. Thank you, Mr. Chairman. I would propose to 
the Committee and the panel that the evidence that official 
time has failed in its stated mission of making things better 
at the VA it is the case before us, it is why we are here, is 
because official time and its purpose has failed as in this 
written documentation by Mr. Wilcox is so eloquently put.
    Official time has failed the VA. It is failing our veterans 
every day. Because if your job through official time has been 
to make it better for our veterans, they have failed. Official 
time is not working, Mr. Chairman. It is evidenced by wait 
lines. It is evidenced by lack of service to our veterans who 
have earned that care.
    Official time has failed. The evidence is all through this 
testimony. We have seen it at our VA facilities. We hear it 
from our veterans. Official time has failed. I don't need 
anymore information. I can look at the history of the VA to see 
that this has failed. And so, Mr. Chairman, I think the bill is 
absolutely necessary.
    Now, I don't put all the blame on the VA or the union even. 
The Federal Labor Relations Authority, if they are making 
decisions about who can be a union representative outside of 
the law, which is what I heard--I hear one person tell me there 
is no language that I am going to be able to find that 
restricts those categories of employees that can or cannot be 
union representatives, but then I am told that they make this 
decision that we can't restrict them--Mr. Chairman, I think we 
pass this legislation and make the Federal Labor Relations 
Authority adhere to it.
    But make no mistake about it, official union time has 
failed in its mission because you sat there and said many times 
that the mission is to make it better at the VA. And it simply 
has not happened. And so I think we need to find a way to make 
it better, to get these classes of people particularly is what 
I am concerned about. When you have individuals, and Mr. Wilcox 
pointed out several of these cases, they are supposed to be 
providing services to veterans and they are not seeing a single 
patient. Not one. That is just not acceptable, Mr. Chairman. I 
yield back my time.
    Mr. Arrington. Thank you, Mr. Rutherford. I now yield five 
minutes again to Ranking Member, Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman. In the most recent VFW 
poll of veterans who use the VA facilities they have a 92 
percent satisfaction rate. Cause and effect is always a very 
difficult thing to try and prove. There is other parts of this 
equation like management and oversight. But I will go to this, 
Mr. Wilcox, have you ever worked in the VA?
    Mr. Wilcox. I have not worked for the VA; I have worked 
within the confines of the VA to meet with veterans and legal 
counsel and work with staff there on mental health issues.
    Mr. Walz. Are you a veteran?
    Mr. Wilcox. No, they wouldn't take me.
    Mr. Walz. Have you ever been in a union?
    Mr. Wilcox. No, sir.
    Mr. Walz. All right. Is this correct that your institution 
recommended granting emergency managers state of emergency 
power in the State of Michigan to override elected officials to 
toss out union contracts? Is that a position advocated by your 
organization?
    Mr. Wilcox. We did advocate for the emergency manager law. 
And as general oversight of the failing municipality, he did 
have that authority.
    Mr. Walz. Would you recommend that for the VA?
    Mr. Wilcox. If there is a serious enough situation that it 
warrants a takeover by governing officials, it would seem to be 
a possibility. But it is not something obviously I have thought 
about before.
    Mr. Walz. Are you publically funded?
    Mr. Wilcox. Publicly funded?
    Mr. Walz. Yeah.
    Mr. Wilcox. No, sir.
    Mr. Walz. Privately funded?
    Mr. Wilcox. Privately funded.
    Mr. Walz. Okay. Ms. Blommel, how many people do you say you 
represent in your bargaining units?
    Ms. Blommel. We have over 1600 bargaining members.
    Mr. Walz. How many people are on official time, 100 percent 
official time?
    Ms. Blommel. At the St. Cloud VA?
    Mr. Walz. Yes.
    Ms. Blommel. I have two.
    Mr. Walz. So there's two of you.
    Ms. Blommel. Yes.
    Mr. Walz. How long will you do that? How did you get this 
position, if I could ask?
    Ms. Blommel. I was elected to this position two years ago 
and I have one year left in my term by the bargaining members.
    Mr. Walz. Okay. So your peers and the folks who work there, 
nurses, those combat veterans who work down there, they said we 
want you to go speak to management for us?
    Ms. Blommel. That is correct.
    Mr. Walz. Do you believe they asked you to do that to 
improve their own personal lives or enrich themselves or why do 
you think they wanted you to do that?
    Ms. Blommel. Because they felt that I had integrity. They 
felt that I would do the right thing and I would stand up, 
listen to them when they had concerns and do the right thing.
    Mr. Walz. What will happen when your term is up?
    Ms. Blommel. What will happen? There is either two things. 
Either I will be reelected to be the union president or I will 
go back and be a nurse on the floor.
    Mr. Walz. And either way in your mind you are serving 
veterans--
    Ms. Blommel. Yes, I am.
    Mr. Walz [continued]. --to the best of your ability?
    Ms. Blommel. I am serving them either way.
    Mr. Walz. Okay. So I would ask all of us this, there is two 
people representing 1600 working with management at the St. 
Cloud VA. Had a management issue at the St. Cloud VA, had 
whistle blower situations. By the way, the St. Cloud VA is 
rated the highest in the VA system. Am I correct in that, in 
the star ratings?
    Ms. Blommel. That is correct, we are five star.
    Mr. Walz. Okay. Would you say your institution is failing?
    Ms. Blommel. We are--our employees work very hard, so no, 
we are not failing.
    Mr. Walz. And I notice you hesitated on that. Is that 
because if you feel if one veteran is not served, then you 
consider that personal failure?
    Ms. Blommel. If a veteran is not served, yes, that is a 
failure.
    Mr. Walz. Okay. But the data shows that, again, from the 
VFW on systemwide, St. Cloud even higher than that, because we 
have had that polled after Mr. Emmer and I were up there, a 
very high satisfaction rate with what is happening there. You 
have new management. How is that working?
    Ms. Blommel. We have new management, it came over this 
summer. And we have a new director that will be coming aboard 
April 2nd. All of the staff are very excited. And as you know, 
we have over 409 of our employees who are veterans there and 
they are excited about that too.
    Mr. Walz. How long was the director position open before it 
was filled?
    Ms. Blommel. The past director left July 1st and Mr. Black 
was just recently announced last week.
    Mr. Walz. Nine months then?
    Ms. Blommel. Yes.
    Mr. Walz. Which is spectacularly fast in the VA HR system, 
I might add. Okay. I would just ask, and Mr. Chairman, I don't 
disagree with you on this that we need to know these answers. 
And if we cannot provide the data, you are absolutely right to 
ask those questions. But I would end with too, I would hope 
when you took Ms. Blommel to that town hall, you would also 
introduce her as the daughter and a mother of a veteran. And as 
someone who is serving in the VA, she could take those skills 
elsewhere. And I am not disagreeing. Again, if anybody is 
abusing this, then we need to crack heads. But I think the 
assumption--how would each of us if each day we had a different 
chief of staff giving us advice going back and forth? So you 
can take 100 percent. I think you maybe ought to have the 
argument on this. If you are going to say we should have four 
at twenty-five, what is the difference in that? You are making 
the assumption then that this one person is going to just by 
going back in there--my example before was I never fired 
artillery, but I helped our unit fire artillery. So I just ask 
us to think about that. I don't disagree with wanting to get 
the data. But I do think assuming that union time is not 
performed--helping veterans is a pretty big leap. I yield back.
    Mr. Arrington. Thank you, Mr. Ranking Member. And now we 
will yield to Dr. Wendstrup for five minutes of questions.
    Mr. Wenstrup. Yeah, thank you, Mr. Chairman. I apologize 
for getting here late. And so forgive me in some of my 
questioning. But just trying to get a picture of like what your 
day is like. You know, what do you do? You know, the union 
activity, is it taking care of veterans, are you helping people 
take care of veterans? You mentioned, for example, making sure 
instruments are there. Did I hear you correctly?
    Ms. Blommel. That is correct.
    Mr. Wenstrup. As a surgeon, that is a pretty important 
thing, making sure the instruments are there--
    Ms. Blommel. Yes, it is sir.
    Mr. Wenstrup [continued]. --right, before you go and do 
your surgery. But, you know, in our hospital that is somebody's 
job. It is somebody's job. So you are saying if you are not 
there, the instruments may not be there?
    Ms. Blommel. What I am saying is sometimes we have to 
look--we look at the instrument set, are there--because maybe 
they are not as efficient or they have caused an injury to an 
employee.
    Mr. Wenstrup. So are you really a supervisor, are you a 
hospital supervisor--
    Ms. Blommel. No, sir.
    Mr. Wenstrup [continued]. --to try and make sure? That is 
what I am trying to figure out because, you know, people have a 
job, they have a responsibility. Their responsibility is to 
make sure, for example, that the instruments are there as 
requested, as needed for the case, and they deliver it. There 
is no one else involved with that necessarily, unless there is 
a repeated problem. So I don't understand. So are you there to 
make sure that someone in the union is doing their job 
correctly? I don't get it. I don't understand why--and you used 
that as an example, and that is why I went to that.
    Ms. Blommel. Sure.
    Mr. Wenstrup. Because in our hospitals there is a person 
responsible for having the instruments there.
    Ms. Blommel. Yes. That someone is [indiscernible].
    Mr. Wenstrup. And there isn't someone 100 percent of the 
time trying to make sure that the instruments are there because 
that is somebody else's job. So I don't--are you there just for 
people who are not doing their job or is that your job? Do you 
put the instruments together, do you deliver the instrument 
pack to the OR? Just help me here.
    Ms. Blommel. No, I don't. What I do is I make sure that--
because our physicians are bargaining union, you know, could be 
union or bargaining members--what I do is make sure they have 
the right instruments to help and take care of our veterans. 
And sometimes when we have an instrument that maybe is not as 
effective or if there was an injury, I make sure we get the 
right stuff. I get asked for opinion, or the employee will come 
to me and say, you know, this isn't working. And I will go to 
management and we will sit down and we will have a conversation 
about what is the best and we get to look at it. And, no, I am 
not--
    Mr. Wenstrup. So it takes an interim person to do that?
    Ms. Blommel. Not all the time, sir.
    Mr. Wenstrup. You mean the surgeon can't say, hey, this 
instrument is broken, I need--
    Ms. Blommel. They do.
    Mr. Wenstrup [continued]. --a new one? You know, can we put 
in for that, can I get that? They need another person? I am 
just trying to figure out why you need to be part of that 
process. It seems to me that we are adding an extra step. I 
don't know, I just--it is not very clear to me why you need to 
be in that role necessarily if people are doing their job. And 
if there is a problem that they can handle it without having to 
go running to someone else and say, hey, we need a new 
instrument, can you be my voice? That person, it is their job. 
I just don't see that in other situations where that is taking 
place in private sectors. So it is just kind of confusing to me 
in that regards.
    But I appreciate that you are there and you are trying to 
make sure that things get done. But it sounds to me like you 
are there in case someone isn't doing their job, because I 
shudder to think that if you weren't there one day that they'd 
have to cancel a surgery or something like that because you 
weren't there, because it is already somebody else's job to get 
that done. And with that, I yield back. Thank you.
    Mr. Arrington. Thank you, Dr. Wenstrup. I am just going to 
ask if anybody else has any further questions or comments. I 
wanted to say again thank you to the panelists and appreciate 
your time and your thoughtful responses to our questions. You 
know, I am new to the Committee and I have tried to listen and 
observe more than opine. But there is this theme whether it is 
the IT, the first hearing we had on IT systems and millions of 
dollars in waste because of mismanagement there, or it is the 
Choice Act, or it is tracking union time, to me the heart of 
the problem at the VA is a lack of accountability and the 
inability to manage the VA effectively, because I think one 
could argue we have thrown billions and billions of dollars, 
and in my opinion some good money after bad, because of a 
dysfunctional culture and system. And it is not dysfunctional 
people.
    I think you are a well-intended good hearted person. And I 
haven't met a VA employee yet that I don't think is a fine 
American and who deep down wants to serve veterans. But it is--
there is nobody who would run their business or run their non-
profit the way the VA runs their business. And there is, in my 
opinion, there is no way to have the culture and the lack of 
accountability and be able to provide excellent service to your 
customer, in this case the VA.
    And like my friend and colleague, Mr. Rutherford, I don't 
need any more evidence to know that somebody spending 100 
percent of their time on union activity when you have 45,000 
vacancies and these awful wait lines and the lack of access to 
care, there is just no way somebody can convince me that that 
is reasonable and in the best interest of the taxpayer, let 
alone the veteran.
    We all want to serve our veterans. We all on this Committee 
want them to receive the best care. I suspect also that 
everybody on the panel does. And we all know they deserve 
nothing less. I introduced this bill so that more individuals 
were focusing on this goal and focusing on the jobs that they 
were hired to do, as well as to bring greater transparency for 
the American taxpayer about where their tax dollars are going, 
especially if the money is being used for union activities as 
opposed to paying for someone to do the job, again the job that 
they were hired to do.
    I look forward to continuing--to continue working with all 
stakeholders involved and my colleagues on this legislation 
going forward. And I now ask unanimous consent that the 
statement submitted by Mr. J. David Cox, National President of 
AFGE, be submitted into the record.
    Hearing no objection so ordered.
    Finally, I now ask unanimous consent that all Members have 
five legislative days in which to revise and extend their 
remarks and include any extraneous material on today's hearing.
    Without objection so ordered.
    Thank you all again for being here today. This hearing is 
now adjourned.

    [Whereupon, at 3:21 p.m., the Subcommittee was adjourned.]

                          A P P E N D I X

                              ----------                              

             Prepared Statement of Kimberly Perkins McLeod
    Good afternoon, Mr. Chairman, Ranking Member O'Rourke, and other 
Members of the Subcommittee. Thank you for the opportunity to discuss 
H.R. 1461, entitled the ``Veterans, Employees, and Taxpayers Protection 
Act of 2017,'' which pertains, in significant part, to the use of 
official time and probationary employees. I am accompanied today by 
Rondy Waye, Human Resources Policy Advisor in VA's Office of Human 
Resources and Management.
    VA generally supports H.R. 1461, but we do have a few concerns with 
the legislation which we have noted below. We note that H.R. 1293, a 
bill with Government-wide applicability, includes similar requirements 
- but, under different tracking and reporting deadlines, which will 
likely be problematic from an implementation perspective.
    With regard to section 2 of the legislation, which would insert a 
new section 741 in Title 38 of the United States Code (U.S.C.), the 
inclusion of this recordkeeping requirement will result in increased 
administrative responsibilities and obligations for VA. In addition, an 
October 1st deadline for a report covering the most recently ended 
fiscal year will present insurmountable challenges, especially in light 
of the Department's current system for tracking the information. The 
Department recommends a reporting date of March 1 following the period 
covering the most recently ended fiscal year. The Department currently 
has the ability to electronically track union official time for 
employees in the VA Time and Attendance System (VATAS), and is in the 
process of fully implementing this system, with a projected completion 
date of July 2018. Using VATAS, the Department can now track the 
categories of official time in accordance with the Office of Personnel 
Management's (OPM) four categories: 1) term negotiations; 2) mid-term 
negotiations; 3) general labor-management relations; and 4) dispute 
resolution, similar to the way all other agencies track official time 
across the Federal Government. However, section 741 would require the 
capture of additional information regarding official time, which would 
require a revision to VATAS, as well as the use of a secondary system, 
HR Smart, to capture the monetary aspects of the bill. Section 741 also 
calls for the collection and analysis of subjective data, requiring VA 
to determine the impact that granted official time has on its 
operations. Overall, to maintain the tracking and reporting of this 
administrative data to the level of granularity required in this bill, 
VA would be required to add additional FTE in administrative support. 
To reduce administrative and cost burden, we ask that the Committee 
reconsider some of the granular reporting requirements in the bill, and 
would like to work with the Committee to alleviate these concerns while 
achieving the important objective of increased transparency.
    With respect to section 742, which would be inserted in Title 38 
under the legislation, VA does not oppose the time limitations 
established in the legislation. VA finds certain union lobbying efforts 
on behalf of VA beneficial to VA's stakeholders - the Veterans. Indeed, 
Veterans have benefitted from union lobbying efforts in areas such as 
expansion of scopes of practice for nurses and pay and hiring 
flexibilities to provide expedited patient care.
    The Department is also generally in favor of the types of 
limitations on the use of official time for certain individuals set out 
in section 742. We would prefer that doctors spend all their work time 
caring for Veterans. In addition, we think it is important for every 
employee to spend at least half of their work time performing 
management-directed tasks. Currently, however, the Federal Service 
Labor-Management Relations Statute does not allow us to limit official 
time to particular employees or classes of employees. Although we can 
negotiate overall use of official time, we cannot prohibit doctors from 
using official time or restrict registered nurses to no more than 25 
percent official time. If this bill passes Congress and becomes law, VA 
will have that capability.
    VA also notes that, unless otherwise superseded by section 742, the 
provisions in 5 U.S.C. <l-arrow> 7131(a) continue to apply to certain 
mandatory official time. To the extent the intent is to supersede that 
provision, VA recommends clarifying language in section 742. VA will be 
happy to work with the Committee on this language.
    VA does not have a position with regard to section 743, which would 
be inserted in Title 38 under the legislation. However, VA proposes 
that the bill include clarifying language regarding what 
``termination'' means in the context of the bill. VA recommends that 
the term ``termination'' be clarified to mean the submission of an 
employee's SF-1188 to his or her servicing HR or payroll office.
    With regard to section 3 of the legislation, which would insert a 
new section 719 in Title 38, VA does not oppose this provision. 
However, we note that expanding the probationary period for all covered 
employees may have the unintended effect of dissuading candidates, 
including Veterans, from seeking employment with VA. In addition there 
would be three different probationary periods depending on the type of 
appointment for VA employees (12 months, 18 months and 24 months) which 
will likely lead to misapplication and confusion on the part of 
employees and managers. Moreover, under 5 U.S.C. <l-arrow> 7511, 
certain VA probationary employees are already entitled to appeal a 
separation action to the Merit Systems Protection Board if they have 
worked for the Federal Government for more than 12 months. The 18 month 
probationary period prescribed by this bill will not change this right. 
Consequently, to the extent that the intent is to curtail appeal rights 
during the probationary period, relevant changes should also be made to 
5 U.S.C. <l-arrow> 7511. VA will be happy to work with the Committee on 
this language.
    Mr. Chairman, this concludes my statement. VA looks forward to 
working with the Committee to provide technical guidance on those 
elements that we have noted may be of concern. I am happy to answer 
your questions.

                                 
              Prepared Statement of Shirley Parker Blommel
    Chairman Arrington, Ranking Member O'Rourke and Members of the 
Subcommittee:

    Thank you for the opportunity to share the views of Local 390 of 
the American Federation of Government Employees, AFL-CIO (AFGE). Local 
390 represents 1,642 bargaining unit (BU) employees working as medical 
professional and support personnel at the St. Cloud, Minnesota VA 
Health Care System (St. Cloud VA), a quarter of whom are veterans.
    I came to work at the St. Cloud VA as a licensed practical nurse 
(LPN) in 2008, after working at several different private practices in 
rural and urban areas, including a maternity ward, urology practice and 
community based nursing home. At the VA, I started out in the nursing 
home and then I worked in primary care and the residential 
rehabilitation treatment program (RRTP). I worked in primary care until 
2014 when I began working full time as a union representative.
    I was elected vice president of Local 390 in 2012, and I have 
served as president of my local since 2014. Our bargaining unit covers 
a wide range of positions at the St. Cloud VA Main Campus and Brainerd, 
Alexandria and Montevideo community outpatient clinics (CBOC).
    After one year at the St. Cloud VA for one year as a nurse working 
on the floor, I signed up to be a union member, went to meetings and 
learned I could make a difference. Also, my dad was infantry in the 
Army and I wanted to give back for all he sacrificed. I realized that 
by getting involved in the union, I could help front line employees and 
learn how to work collaboratively with management to improve the 
veteran experience.
    Personally, it's taken on something more for me now because my son 
is a veteran. I've taken more of a personal ownership of what I do.
    Being a local officer has been a very fulfilling experience and has 
taught me a great deal, especially that labor-management relations are 
not about I'm right and they're wrong but rather that we have different 
perspectives but a shared goal of wanting to improve care. When the 
union and management work collaboratively, we can move toward the same 
positive outcome.
    As a local officer, I have the opportunity to make sure employees 
are getting proper training and that the workplace is safe. Our members 
all want to provide the best care to veterans, but they cannot do this 
without adequate training and a safe working environment.
    I come before this Subcommittee today at the request of my 
Representative, Congressman Walz, and I am here to talk about how I try 
to address problems at my facility using official time. I must confess 
that I am concerned about retaliation from management when I go back 
because over the last two years, the environment at St. Cloud became 
very hostile. In 2015, veterans using the St. Cloud VA went to the 
media to complain about a lack of providers and increased primary care 
panels. Congressmen Walz and Emmer came our facility and spoke with BU 
employees and got us some help. The Federal Mediation and Conciliation 
Service conducted a five-day mediation and we also got a visit from 
former VA Secretary McDonald. The outcome of this process was that the 
medical center director retired and we now have new leadership at our 
facility.
    There are many other examples of how I have used official time to 
keep the St. Cloud VA workforce strong, make the work environment safer 
and collaborate with management carry out the agency's mission and take 
great care of veterans at our facility.
    For example, Occupational Safety and Health (OSHA) inspectors came 
to our facility in 2013 and found a long list of violations. They spent 
20 days at our facility. After correcting the violations, medical 
center leadership and I went to their district office to review the 
charges and make sure staff had correct training.
    On a frequent basis, I represent housekeepers in their disputes 
with their supervisors. All of our housekeepers are combat veterans and 
they play a critical role in patient safety by keeping operating rooms 
and other areas free of infection. Many of these veterans suffer from 
anxiety, substance abuse, PTSD or other mental health issues. When a 
combat veteran in the bargaining unit has to take leave to get care at 
a VA treatment center, supervisors sometimes give them a very hard time 
when they return and the veterans end up feeling stigmatized and 
targeted. Instead of the supervisor saying, ``Good for you, I am glad 
you got treatment'', they often harass them for being low on sick 
leave, even though the veteran sought treatment for a condition he 
acquired in the military.
    When these veterans come to the union for help, we explain their 
rights under the Family Medical Leave Act and we reach out to 
management to smooth out tensions and ask for greater understanding 
from management.
    I frequently have conversations with employees because they are 
feeling intimidated and bullied by some of the comments made by 
managers. We ask the employees about problems such as how schedules are 
changed without notifying the employee, which then leads to management 
charging them with AWOL for not showing up for the new shift. As a 
union official, I have been able to resolve these types of 
misunderstandings informally at an early stage.
    The union plays an essential role in addressing other arbitrary 
management actions that create unnecessary conflicts that interfere 
with the agency mission. I assisted a food service worker who prepares 
meals for veterans. He is an excellent employee who would not hurt a 
flea and greets everyone he sees and never had any trouble on the job. 
Then one day, as a favor to a coworker who could not attend the morning 
huddle, he shared management's guidelines for the day with the team. 
When the service line director showed up, she chastised him for not 
speaking loudly enough. He tried to explain that his throat was 
bothering him. She issued a reprimand anyway. We challenged the 
reprimand and instead of it staying in his file for three years, the 
union was able to get it removed after three months.
    I represented another food service worker who was the target of 
manager accusations because she had a medical notification related to 
her inability to work extra shifts because of a back injury. The 
manager went around and talked to everyone about her medical condition, 
which Intimidated the employee a great deal. I was able to talk with 
the manager about the employee's rights and needs. As a result, the 
manager stopped harassing her and the employee continues to be a 
productive employee to this day.
    When I first became the union vice president, I was only on 50% 
official time. As the need increased for us to be present, management 
frequently asked me to come in on a day off from my RRPT duties. After 
I became president of the local, it became clear that management's 
expectation was that the president would be working only administrative 
hours. Management likes the continuity of having me work 100% official 
time. I need to be there when management calls a meeting, or schedules 
grievances under the required timeframes. If I am to be effective, my 
availability has to overlap management's availability. In addition, the 
local needs official time so that management can send shop stewards to 
the many training classes that are scheduled on health and safety and 
other matters.
    In addition, to representation of individual employees, my regular 
duties as union president including:

    <bullet>  Attending monthly meetings called by management including 
director meetings, meetings with nurse executives and staff meetings,
    <bullet>  Meeting with service lines to talk about existing and new 
policies,
    <bullet>  Meeting with management to discuss policy changes and how 
it will impact working conditions, and how we can work in a 
collaborative manner to improve veteran care,
    <bullet>  Discussing new directives from VA Central Office and how 
they will impact work flow; then I go to the employees to ask about the 
workflow and how can we do it better and share this information with 
management,
    <bullet>  Resolving disagreements between employees, and
    <bullet>  Mentoring new employees.

    If H.R. 1461 were to become law, I would only have 25% official 
time. This would have an adverse impact on the veterans as well as the 
employees at St. Cloud. I need to time to address the many new 
directives that come down from the Veterans Health Administration. I 
would not have enough time to sit down and work things out with 
management and determine how to implement the new requirements.
    For example, just recently, a new directive on the Query State 
Prescription Drug Monitoring Program came out. This has a big impact on 
working conditions; providers will have to start a query when veterans 
get narcotics or changes in prescription. The union has to work with 
management to determine which positions are best suited to assist with 
the queries. Also, we need to work together to make sure our providers 
understand who should be delegate exactly and make sure all our Is are 
dotted and our Ts are crossed.
    Duty time was also essential to implement another recent directive 
on how to upgrade urgent care to an emergency department (ED). It is a 
complex directive and there are many new requirements that must be met, 
including inpatient beds and having social workers available on call.
    I have no problem providing medical care to my veterans. But I also 
think that my duties as a union official are also very important for 
taking care of veterans.
    I also want to state that I am a very good steward of the use of 
official time at my local time. I make sure that shop stewards on 
official time only take 30 minute breaks. If they go over, I have a 
conversation with them. I am a work horse myself and I work very hard 
and I expect the other local officers to do the same. I have asked some 
shop stewards to step down because I insist on proper use of official 
time. There is zero abuse of official time at my local; we are using 
less than allowed under the contract at the present time.
    H.R. 1461 would also prohibit me from lobbying. I am here today on 
duty time. I used duty time two years ago to work with Congressmen Walz 
and Emmer on the staffing problems already discussed, including meeting 
with the Congressmen`s DC staff who came to St. Cloud, and to conduct a 
meeting between the lawmakers and the BU employees.
    I am also very concerned about two other provisions of this bill 
and how they would impact the union's ability to work with management 
to carry out the agency's mission. If members could drop their union 
dues deductions at any time, instead of the current one year 
commitment, it would be a financial diaster to our local. These dues 
are essential to paying for member training, and arbitration fees, 
among other needs.
    Finally, I think a longer probationary period is unnecessary and 
would be harmful, especially to the many veterans among our new hires. 
A good manager knows within six months whether an employee is good 
enough to stay on after probation. I can recall a case involving 
another LPN who was on probation and management promised to provide 
training to improve his performance. Instead, management just said 
goodbye without keeping its commitment on the training, right after 
forcing him to cover a holiday weekend.
    Thank you for the opportunity to share the views of AFGE Local 390 
on H.R. 1461.

                                 
                  Prepared Statement of Derk A. Wilcox
Introduction

    Chairman Arrington, Ranking Member Walz, and Members of the 
Committee, thank you for holding this hearing and giving me an 
opportunity to discuss the issue of the use of ``Official Time'' at the 
Department of Veterans Affairs.
    My name is Derk Wilcox, and I am the Senior Attorney at the 
Mackinac Center for Public Policy. The Mackinac Center is a is a 
nonpartisan research and educational institute dedicated to improving 
the quality of life of people in its home state of Michigan and 
nationwide by promoting sound solutions to public policy questions.
    I'd like to note that as a practicing attorney I have had the honor 
of representing many veterans as their court-appointed counsel in 
mental health, guardianship, and conservatorship hearings. I have spent 
many hours at the VA facility in Ann Arbor working with the staff and 
the veterans there.
    VA Hospitals are beset with many problems as they try to meet the 
needs of our veterans. Official Time has added to those problems. 
Official Time is the practice of releasing employees to perform union 
functions while they are paid by the government agency - Veterans' 
Affairs, in this instance.
    H.R. 1461 is a much needed first step requiring tracking and 
reporting the use of Official Time, and that is what I am here to 
testify about today.

History

    This bill is not the first effort to track Official Time. Back in 
1979 the General Accounting Office (GAO) found that 18 of 26 bargaining 
units at four agencies had no record of Official Time usage, and 
recommended that the Office of Personnel Management (OPM) issue annual 
reports on its use. \1\
---------------------------------------------------------------------------
    \1\ Office of Personnel Management Summary Report: Official time 
for Representational Activities Fiscal Year 2002. https://
www.chcoc.gov/content/official-time-union-related-activities
---------------------------------------------------------------------------
    Through the Federal Personnel Manual, OPM directed agencies to 
develop a record keeping system. \2\ However, the Federal Personnel 
Manual was discontinued in 1994, along with any requirements for 
tracking Official Time.
---------------------------------------------------------------------------
    \2\ Federal Personnel Manual letter 711-161
---------------------------------------------------------------------------
    Since then, agencies have been subject to different requirements by 
differing administrations. Hence, the need for legislation to create a 
standardized database which will assist effective personnel management 
at the VA.

Official Time has been misreported and underreported

    OPM currently reports sporadically on limited aspects of Official 
Time. In the Fiscal Year 2012, the last year for which estimates 
appear, OPM estimated that Official Time cost the VA $46,868,149.40. 
This cost represented 253,691 employees performing 1,086,257 total 
hours. This was up over $4 million from the previous year, when it was 
estimated to be $42,565,000.79. \3\ There does not appear to be 
published estimates from OPM for the last five years.
---------------------------------------------------------------------------
    \3\ United States Office of Personnel Management, ``Labor-
Management Relations in the Executive Branch,'' October 2014, https://
www.opm.gov/policy-data-oversight/labor-management-relations/reports/
labor-management-relationsin-the-executive-branch-2014.pdf
---------------------------------------------------------------------------
    But even these costs are merely estimates. As pointed out in the 
February 16, 2017 testimony before this subcommittee by William 
``Trey'' Lawrence Kovacs III of the Competitive Enterprise Institute, 
these estimated costs fall short of the true costs because these fail 
to account for the use of office space, phones, and travel by employees 
using Official Time. \4\
---------------------------------------------------------------------------
    \4\ William Lawrence Kovacs, III, ``The Use of Official Time for 
Union Activities at the Department of Veterans Affairs: Testimony 
before Subcommittee on Economic Opportunity and Subcommittee on 
Government Operations,'' February 16, 2017. https://
oversight.house.gov/wp-content/uploads/2017/02/kovacs.pdf
---------------------------------------------------------------------------
    The GAO report from 2014 criticized the OPM's method of accounting 
for Official Time. The GAO found that using a more sound method of 
accounting resulted in higher Official Time costs at four of the six 
agencies it examined. The estimates by the GAO were 15% higher than the 
OPM estimates because they changed the methodology of determining the 
amount of salaries devoted to Official Time. \5\
---------------------------------------------------------------------------
    \5\ Government Accountability Office, ``Actions Needed to Improve 
Tracking and Reporting of the Use and Cost of Official Time,'' GAO-15-
9, October 2014, http://oversight.house.gov/wp-content/uploads/2014/11/
GAO-report.pdf
---------------------------------------------------------------------------
    But what the GAO did not look at is whether or not the official 
timekeeping itself is flawed. From my investigations, it appears that 
the use of Official Time is underreported. I examined cases brought 
before both the Department of Labor's Employees' Compensation Appeals 
Board (ECAB) and the Federal Labor Relations Authority (FLRA). These 
cases involved the use of Official Time by VA employees, and Official 
Time was a central part of the case. In so doing I found several cases 
where more time was devoted to the union's activities than was being 
reported as Official Time.
    In a case out of the Dayton, Ohio VA Medical Center, a patient 
services assistant petitioned for workers' compensation after she was 
injured while performing a union function. \6\ She initially claimed 
that she had been on Official Time when the injury occurred. But an 
investigation into the facts found that she had been performing a 
union-related function during her regular work time - not on approved 
Official Time. She was a union steward, and chose to attend an 
appraisal meeting where her presence was not required. She had been 
granted Official Time usage during the morning, but not during the 
afternoon when her injury occurred.
---------------------------------------------------------------------------
    \6\ Simpson, ECAB Docket No. 04-1809, 57 ECAB 197 (2005).
---------------------------------------------------------------------------
    In another ECAB claim, this one out of the Philadelphia VA Medical 
Center, a medical supply assistant was injured while travelling to 
attend a union meeting. \7\ Again, the Board found ``Appellant's 
supervisor and appellant both note that based on her union position she 
was entitled to use up to four hours a day of official time. However, 
both agree that her time sheet did not reflect that she was on official 
time at the time of injury and that appellant was in a regular duty 
status when her injury occurred.'' Again, the official time keeping did 
not reflect that she was performing the union's work.
---------------------------------------------------------------------------
    \7\ K.L. and Dept. of Veterans Affairs, Docket No. 06-2154, 2007 WL 
1227942
---------------------------------------------------------------------------
    Perhaps most egregious was a FLRA case out of the Medical Center at 
Leeds, Massachusetts. \8\ A clinical neuro-psychologist was also the 
union president. She was allowed to spend 60 percent of her workweek on 
Official Time. However, an arbitrator found that, because of her 
Official Time, it was an unfair labor practice to require her, as part 
of her performance appraisal plan, to see any patients per week. 
Because ``official union duties placed time constraints on the 
grievant's clinical schedule during the workweek'' it was ``unfair'' to 
require her to see as few as one patient for testing per week. In 
short, what was recorded as 60 percent Official Time effectively became 
100 percent Official Time. Furthermore, she was exempt from the 
procedures for scheduling patient ``consults.'' i.e., she was not 
required to participate in ``requests from physicians or others that a 
veteran be seen for psych[iatric] or neuro-psych[chiatric] 
evaluation.'' Although the time sheets would not show it, Official Time 
kept this neuro-psychologist from seeing any patients as a requirement 
of her employment.
---------------------------------------------------------------------------
    \8\ NAGE Local R1-274, 68 FLRA No. 160 (2015)
---------------------------------------------------------------------------
    In 2013 Senator Rob Portman (R-OH) and Tom Coburn (R-OK) wrote to 
the then-Secretary of Veterans Affairs, Eric Shinseki, noting that: 
``Documents show that your department recently employed at least 85 VA 
nurses, some with six-figure salaries, who were in 100 percent official 
time \9\status.'' \10\ Yet as the cases I have cited show, there are 
others, perhaps many, whose Official Time usage exceeds their allotment 
and who are effectively on 100 percent Official Time despite being on 
record as only devoting 60 percent to Official Time.
---------------------------------------------------------------------------
    \9\ ``Portman/Coburn Letter: Should 188 VA Employees Be Paid To Do 
Union Work Full-time While Veterans Face Backlog?,'' June 5, 2013, 
Office of Senator Rob Portman, http://www.portman.senate.gov/public/
index.cfm/pressreleases?ID=6bbed8f6-35c2-49e3-a0fb-fd10a0089f04
    \10\ In another FLRA case out of the Dayton, Ohio VA, a woman was 
hired as a prosthetics representative. But on becoming union president, 
she spent 14 years on 100 percent official time. She then filed a 
grievance and won when the Agency did not consider those 14 years of 
union business to be equivalent to advancement in the prosthetics 
field. AFGE Local 2209, 65 FLRA No. 206 (2011).
---------------------------------------------------------------------------
    So while the OPM found that in VA employees spent 1,086,257 hours 
on Official Time, based on the cases I have cited, there is ample 
reason to believe that hours reported to the OPM are undercounted.
    One of the common responses to the use of Official Time for union-
related business is that the unions are required to represent all 
bargaining unit members, both dues paying members and non-members. And 
that this universal representation requirement imposes an unfair burden 
on the unions in their representational activities. However, according 
to the VA, the union which represents most VA employees is the 
Government Employees AFGE AFL-CIO. \11\
---------------------------------------------------------------------------
    \11\ https://www.va.gov/LMR/laborunions.asp
---------------------------------------------------------------------------
    In FY 2015 Government Employees AFGE AFL-CIO National Headquarters 
reported receipts of $134,852,702 on its LM-2 disclosure forms. (This 
number does not include the locals.) It would not be unreasonable to 
expect the AFGE and other unions to bear the costs of their own 
activities rather than shifting these costs to taxpayers and 
shortchanging the veterans who are supposed to be served by the VA 
employees who are instead on Official Time. If the burden of 
representing non-union members in the bargaining unit is too great, 
than perhaps the unions should be relieved of that requirement in 
exchange for non-union-member employees being allowed to represent 
themselves, a.k.a., ``Workers' Choice.'' \12\
---------------------------------------------------------------------------
    \12\ http://www.mackinac.org/22471
---------------------------------------------------------------------------
    The enactment of H.R. 1461 could provide the necessary tool to 
properly count the hours and total cost of Official Time at the VA. 
Likewise, it would restrict Official Time activities so that physicians 
like the psychiatrist in the case above at the Leeds facility are using 
their skills and expertise on the treatment for which they were trained 
and hired, and not for union activities. Section 741(a)'s requirement 
that time be accounted for ``accurately and to a specific degree'' 
should eliminate the case of duty time being used for union activities, 
as the aforementioned cases found. Section 741(2)(E) and (F) should 
correct the flaws pointed out in the February 16, 2017 CEI testimony 
before this body, which pointed out that Official Time was not 
accounting for fringe benefits, office space, or other facilities used 
for Official Time. Section 742(a) correctly restricts Official Time 
from being used for ``political activities or activities related to 
lobbying.'' As noted above, the unions representing VA employees have 
annual revenues of well over $100 million - under no circumstances 
should taxpayers be required to fund political activities on their 
behalf. Lastly, and perhaps most importantly, Section 742(b) is a 
necessary correction prohibiting physicians and other highly-skilled 
medical professionals from using Official Time when their unique skills 
and training should be used to treat our veterans.

Summary

    In summary, when cases have been looked at in-depth, it has been 
frequently shown that employees have been using more time for union 
activities than has been allocated to them as Official Time. H.R. 1461 
would appear to be a necessary first step to properly track how much 
time VA employees spend on Official Time, account for the true costs, 
and restrict the improper uses of Official Time. Following the 
enactment of H.R. 1461, we should get a more complete picture of the 
extent of the problem, and better enable managers to effectively use 
the resources available to help our veterans.
    I would like to thank the subcommittee for this opportunity and 
will welcome any questions.

                                 
                       Statements For The Record

      AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO (AFGE)
                 J. DAVID COX, SR., NATIONAL PRESIDENT
    Chairman Arrington and Ranking Member O'Rourke, and members of the 
Subcommittee, my name is J. David Cox, and I am the National President 
of the American Federation of Government Employees, AFL-CIO (AFGE). I 
submit this statement in opposition to H.R. 1461 on behalf of the 
700,000 federal and District of Columbia employees AFGE represents, and 
I urge the Subcommittee to reject this legislation.

Background

    On January 17, 1962, President John F. Kennedy signed Executive 
Order 10988, Employee-Management Cooperation in the Federal Service, 
which gave federal employees the right to unionize and bargain 
collectively. Seven years later, on October 29, 1969, President Richard 
Nixon issued Executive Order 11491, which reaffirmed and expanded those 
rights.
    In 1978, Congress enacted the Civil Service Reform Act (CSRA) of 
1978 which states clearly the public interest in labor unions and 
collective bargaining in the federal sector. The language of the law 
includes the following:

    The Congress finds that-

    (1) experience in both private and public employment indicates that 
the statutory protection of the right of employees to organize, bargain 
collectively, and participate through labor organizations of their own 
choosing in decisions which affect them-

    (A) safeguards the public interest,

    (B) contributes to the effective conduct of public business, and

    (C) facilitates and encourages the amicable settlements of disputes 
between employees and their employers involving conditions of 
employment; and

    (2) the public interest demands the highest standards of employee 
performance and the continued development and implementation of modern 
and progressive work practices to facilitate and improve employee 
performance and the efficient accomplishment of the operations of the 
Government.

    Therefore, labor organizations and collective bargaining in the 
civil service are in the public interest. \1\
---------------------------------------------------------------------------
    \1\ https://www.law.cornell.edu/uscode/text/5/7101
---------------------------------------------------------------------------
    The CSRA went on to require federal employee unions to provide a 
wide range of representational services for all employees in their 
collective bargaining units, including those who choose not to join the 
union, not to pay dues. Under this ``open shop'' arrangement, federal 
employee unions are also forbidden from collecting any fair share 
payments or fees from non members for the services which the union has 
a legal obligation to provide.
    In order to fulfill unions' legal obligation to provide the same 
services to those who pay as well as those who choose not to pay, the 
Executive Orders and the CSRA instructs agencies to bargain with 
federal employee unions to determine a reasonable amount of ``official 
time'' to carry out these duties. These legal provisions have produced 
an efficient and effective mechanism for the fulfillment of the duty of 
fair representation. Federal employees agree to serve as volunteer 
employee representatives, and agencies allow them to use a reasonable 
amount of official time to engage in representational activities while 
on duty status.
    The representation activities that these elected volunteers may 
engage in while in duty status are limited, and include:

    <bullet>  Developing systems to allow workers to perform their 
duties from alternative sites, thus increasing the effectiveness and 
efficiency of government;
    <bullet>  Participating in management-initiated efforts to improve 
work processes; and
    <bullet>  Creating fair promotion procedures that require that 
personnel selections be based on merit, in order to allow employees to 
advance their careers;
    <bullet>  Establishing flexible work hours that enhance agencies' 
service to the public while allowing employees some control over their 
schedules;
    <bullet>  Setting procedures that protect employees from on-the-job 
hazards;
    <bullet>  Enforcing protections from unlawful discrimination in 
employment;
    <bullet>  Providing affected workers with a voice in determining 
their working conditions.

    Official time may not be used for union organizing, the union's 
political activities, or the conduct of internal union business, all of 
which are prohibited by law to be undertaken during hours designated as 
official time.
    The CSRA provides that the amount of official time deemed 
reasonable for negotiations and other representational responsibilities 
that may be used is limited to that which the agency and its unions 
agree is ``reasonable, necessary, and in the public interest''. \2\ The 
actual amount of time permitted to any union representative is 
determined in the course of formal negotiations that follow established 
legal regulations. The notion that agencies have ever provided any kind 
of open-ended quantity of official time is erroneous. There is always a 
cap or maximum amount authorized by the agency and set forth in the 
collective bargaining agreement. Under AFGE's current collective 
bargaining agreement with the Department of Veterans' Affairs, local 
union officials are allocated official time under a formula of no more 
than 4.25 hours per bargaining unit employee per calendar year times 
the number of employees the union is legally required to represent at 
each facility. This number represents an annual maximum.
---------------------------------------------------------------------------
    \2\ https://www.law.cornell.edu/uscode/text/5/7131
---------------------------------------------------------------------------
    To protect the taxpayer and the independence and integrity of the 
union, the statute clearly states that all non-representational 
activities of the union must be performed while in a non-duty status. 
That is, the same individual who has volunteered and been elected by 
his or her co-workers to provide representational services cannot do 
any of the following while on ``official time'' or while in duty 
status:

    <bullet>  solicitation of membership;
    <bullet>  internal union meetings;
    <bullet>  elections of officers; and
    <bullet>  partisan political activities.

    I want to emphasize, Mr. Chairman, that official time may not be 
used for the above activities. I can assure you that AFGE's elected 
representatives receive extensive training and guidance on what 
activities are permitted and what activities are forbidden on official 
time. We take very seriously both our legal obligation to represent all 
members of our bargaining units, and the legal prohibitions against 
engaging in non-representational activities. AFGE representatives know 
the difference and act accordingly.
    Finally, federal employees are permitted to file appeals of 
personnel actions outside the scope of the union's negotiated 
collective bargaining agreement. Examples include appeals through an 
agency's internal administrative grievance system or Equal Employment 
Opportunity programs, appeals to the Merit Systems Protection Board 
(MSPB) for adverse personnel actions such as suspensions, removals, and 
reductions-in-force, appeals to the Department of Labor (DOL) and/or 
the MSPB for violations of veterans' preference rules, appeals to DOL 
for workers' compensation, and appeals to
    OPM for violations of the Fair Labor Standards Act. These statutes 
provide a reasonable amount of time to employees and their 
representatives to file such appeals.
    Specifically, AFGE opposes the provisions of H.R. 1461 for the 
following reasons:

Excessive Limitations of Official Time

    While H.R. 1461 does not, on its face, eliminate official time in 
the Veterans Administration, it places limits that are inconsistent 
with unions' legal obligation to provide the same services to those 
employees who pay dues as well as those who choose not to pay. This 
legislation severely limits the use of this longstanding tool which 
gives federal agencies and their employees the means to expeditiously 
and effectively address mission-related challenges and bring closure to 
conflicts that arise in the workplace.
    Dictating who may or may not use official time arbitrarily makes a 
significant portion of federal employees who choose to join the union 
ineligible for election to leadership positions in the union. In 
accordance with the law, official time is used only by elected officers 
in the union. By prohibiting most medical professionals from using any 
official time, and severely restricting the use of official time by 
patient care professionals, the Veterans Health Administration will no 
longer have a managed system in place that gives employees with 
specific health care expertise a structured system to safely report and 
address issues impeding the delivery of quality medical care to 
veterans. In many cases, the union official best able to address 
employer-employee relations effectively and timely is a person who has 
worked in a similar profession.
    Further, management has often expressed to our local elected 
leaders a preference for engaging on labor-management issues with just 
a few representatives who are available and knowledgeable to address 
those issues in a timely manner. Many labor-management concerns can be 
addressed in the early stages. If we are not able to have sufficient 
time dedicated to these needs, problems that can be resolved before 
they become larger may grow and multiply. An efficient working 
relationship between labor and management, with individuals dedicated 
to this work from both labor and management, is the best way to ensure 
that VA staff are at their jobs serving America's veterans.

Revoking Membership At Any Time

    H.R. 1461 allows union members to revoke their membership at any 
time. Right now, they sign a contract for a year. Bargaining unit 
members should not be able to drop in and out several times each year, 
and a contractual agreement between the union and its members must be 
upheld. Individuals cannot buy health insurance just in time to go to 
the doctor, drop it the next day, and then pick it up again a few 
months later when they get sick. The union dedicates resources to its 
membership and should be able to count on a year-long membership at a 
time.

Extension of Probationary Periods

    H.R. 1461 extends from 12 months to 18 months the probationary 
period for newly hired employees. Any good manager knows within a year, 
in fact within six months, whether a new hire is a good fit and will 
thrive in their position. Further, with 45,000 positions to be filled, 
the VA is at a deficit in attracting highly trained and experienced 
professionals. The VA will lose its competitive edge as an employer if 
it cannot provide the stability and benefits of full-time career 
positions, especially when recruiting medical professionals.

Ban on Communication with Congress while on Duty Time

    H.R. 1461 prohibits formal communication with lawmakers while on 
official time. This would include the ability to inform Congress of the 
impact of new or pending legislation or an agency's failure to comply 
with Congressional inquiries or requests. The ability to make 
presentations to lawmakers is an important element of our 
representational responsibilities. We ask that you modify this blanket 
prohibition because it is too broad and ultimately inconsistent with 
the public interest in having formal lines of communication open 
between Congress and rank and file federal employees in the Executive 
Branch. Please be assured that we train our member on the requirements 
of the Hatch Act and we adhere closely to those appropriate 
restrictions. Oversight of federal agencies is the one of the most 
important functions of the Congress. We urge you to recognize that 
federal employees are often the most knowledgeable and committed 
advocates for the mission of the government. Congress and the American 
people benefit when they are able to have direct formal communication 
regarding processes and systems that may be working or not working, and 
what might be needed to improve an agency's mission. Although as 
citizens federal employees can always meet with their Congressional 
representatives, as federal employees our members have voted to have 
the right to be represented formally by their employee organization and 
have voted to have their views conveyed to Congress through their 
union.

Official Time: A Partnership that Works

    The provision of a reasonable amount of official time for 
representational duties in the federal sector reflected a choice from 
among the variety of arrangements that existed in the private sector 
labor-management relations and collective bargaining agreements. The 
alternative to ``official time'' in private sector collective 
bargaining agreements has been to charge employees who exercise the 
right not to pay dues to the union a ``fair share fee'' to cover the 
costs a union bears in enforcing its contract with an employer. In 
these cases, the union uses the fees to hire ``business agents'' to 
preform representational duties. There may still be elected shop 
stewards who convey information to business agents, but the actual 
costs of representation are born by the union and paid for by both dues 
and fair share fees.
    Imagine for a moment an arrangement where there is neither official 
time nor fair share fees, yet the union is legally liable for 
representation of each individual in the bargaining unit. These 
representational duties would include both negotiating and enforcing 
the terms of the contract on behalf of the employees in the unit. There 
could be no union representation. This is an obvious absurdity, as 
indeed there is no private entity that is required by law to offer its 
services for free. No business is required to do this. No non-profit is 
required to do this. Even religious institutions and other tax-exempt 
entities are not required to do this. This is the peculiarity of law 
that gave rise to the negotiation between federal agencies and their 
unions for reasonable time to carry out these representational duties 
prescribed by law.

GAO's Report: Official Time Also Makes the Government More Efficient, 
    Effective, and Gives Value to the Taxpayer

    At the Department of Veterans' Affairs (DVA), employee 
representatives are able to work together with agency managers to use 
their time, talent, and resources to improve the delivery of services 
to veterans. The January 2017 Government Accountability Office (GAO) 
report we are here to discuss today (Union Activities: VA Could Better 
Track the Amount of Official Time Used by Employees) found time and 
again that elected union representatives who worked with VA managers on 
workplace and patient issues brought value because of the deep 
commitment to veterans' care that AFGE shares with DVA. ``Managers and 
union officials from most groups we interviewed said that employees' 
use of official time improved decision making and helped them resolve 
problems at their respective VA facilities, and some believed it 
improved relationships between management and labor.'' \3\
---------------------------------------------------------------------------
    \3\ http://gao.gov/assets/690/682250.pdf page 19.
---------------------------------------------------------------------------
    The GAO report found that in two out of three facilities 
investigated, 80% of the groups of managers interviewed agreed that 
union representatives improved decision making and helped resolve 
problems, and 60% of the manager groups agreed that the union helped 
improve relationships. \4\ Our members' only goal is to deliver 
excellent care and services to our nation's veterans. Excellent, highly 
satisfied and dedicated employees are the VA's most important resource 
and reasonable amounts of official time allows employees to participate 
directly in agency decisions that affect them. And the data in the GAO 
report confirm this to be true.
---------------------------------------------------------------------------
    \4\ http://gao.gov/assets/690/682250.pdf page 20.
---------------------------------------------------------------------------
    It must be emphasized that nowhere in the GAO report is there any 
suggestion or allegation of union wrongdoing with regard to the use of 
official time in DVA. GAO found no union failure to report information 
and no instance where information reported was inaccurate. Rather the 
GAO found simply that DVA failed to collect the data properly.
    Private industry has known for years that a healthy and respectful 
relationship between labor and management improves productivity, 
innovation, quality, and customer service and is often the key to 
survival in a competitive market. It is not uncommon for healthcare 
companies in the private sector to bargain with unions over paid time 
for union officials to be released from duty to work on quality 
improvement, safety and other workplace matters. Kaiser Permanente, 
Johns Hopkins Hospital, the Mayo Clinic, the University of Chicago 
Hospital, New York Presbyterian, Cedars-Sinai--the crown jewels of 
America's private healthcare system--all have unionized employees.
    No effort to improve governmental performance--whether it's called 
reinvention, restructuring, or reorganizing--will thrive in the long 
run if labor and management have an adversarial relationship or are 
precluded from engaging in a mutually respectful exchange of ideas. The 
reasonable use of official time provides the means, not only in DVA but 
also throughout the federal government by which employees and their 
elected representatives participate in the improvement of DVA services. 
In these times, it is essential for management and labor to develop and 
maintain a stable and productive working relationship. We must continue 
to allow employees to choose their representatives who will interact 
and work with DVA management. This is crucial if we are to continue to 
improve the delivery of DVA services to veterans.
    Employee representatives and managers have used official time 
through labor-management partnerships to transform the labor management 
relationship from an adversarial stand-off into a robust alliance. And 
that just makes sense. If workers and managers are communicating 
effectively, workplace problems that would otherwise escalate into 
costly litigation can be dealt with promptly and more informally. And 
that is exactly what happens in DVA. Absent the union's ability to 
resolve a misunderstanding or dispute quickly at the local level, 
managers and employees have few options. If an employee leaves or is 
terminated because of a misunderstanding that could easily have been 
handled through a union dispute resolution process, DVA bears the costs 
of recruitment and training of a replacement, a costly, disruptive and 
unnecessary outcome that a good labor-management relationship can and 
does prevent on a routine basis.
    Routinely, we see examples of official time under labor-management 
partnerships or forums used to bring closure to workplace disputes 
between the DVA and an employee or group of employees. GAO's findings 
support this-it found that VA managers and union officials confirm that 
including the union pre-decisionally in the process of considering 
management decisions improved the decision-making process. The GAO 
study also cited that the union and management worked together on nurse 
scheduling at one facility with the goal of improving staff retention 
and morale. Staff retention and increased morale among VA employees is 
critical to being able to hire and retain outstanding staff to improve 
quality treatment of veterans. It is the inclusion of front-line 
employees through their elected union representatives that make these 
kinds of changes not only more frequent, but also more successful and 
more likely to result in better service to our veterans.

Healthier Labor Management Relations in the Federal Government Also 
    Produce Cost Savings in Reduced Administrative Expenses

    Employee representatives use official time for joint labor-
management activities that address operational, mission-enabling issues 
that improve VA's service to veterans. Patient safety initiatives are a 
prime example of this type of work, and the VHA's prominence and 
success in this area is a source of pride for AFGE. Official time is 
allowed for activities such as designing and delivering joint training 
of employees on work-related subjects; and introduction of new programs 
and work methods that are initiated by the agency or by the union. As 
examples, such changes may be technical training of health care 
providers or jointly inspecting the workplace for hazards; 
participating in VA-wide improvement initiatives like MyVA which 
examined a multitude of ways to improve veterans' care, veterans 
benefit processing and other VA system improvements.
    Employee representatives use official time for routine and unusual 
problem-solving of emergent and chronic workplace issues. For example, 
when they participate in VA health and safety programs which emphasize 
the importance of effective safety and health management systems in the 
prevention and control of workplace injuries and patient safety, 
representatives have been granted official time by their managers. 
Another example comes from the important area of patient safety. The 
reasonable use of official time also allows union representatives to 
alert management to issues reported to the them without disclosing the 
identity of the employee who made the disclosure, issues that may be a 
matter of life and death to patients. Employee representatives have 
also used allotted official time to ensure that employees are hired and 
promoted fairly. This work leads to better recruitment and retention of 
desperately needed front- line health care to better care for veterans.

Further Findings in the GAO Report

    The GAO Report found that the use of official time by union 
representatives was valuable to making VA a great place to work and 
improving the delivery of care to veterans. In particular, the GAO 
report found that the use of official time by elected union 
representatives: improved agency decision making, improved conflict 
resolution and led to better, less adversarial outcomes. The use of 
official time improved the relationship between VA management and 
employees. While some challenges in staffing were identified in GAO's 
report, it is important to note that release from duty is always 
coordinated and agreed to by VA management when employee 
representatives participate in workplace matters. Improved employee 
engagement is a goal of the federal government overall and also of the 
VA in particular. Scaling back the involvement of employee 
representatives under the guise of alleged ``government efficiency'' 
would be a mistake, a short-sighted policy which would deprive the 
agency of the valuable contributions front line employees make to the 
VA through the use of official time.
    The challenges and issues cited by GAO are solely related to VA's 
administrative decisions about how to track official time. AFGE 
supports the accurate collection of data, which is called for in H.R. 
1461. It would be inappropriate, however, to use any failure on the 
part of the VA in the implementation of its internal management systems 
as a basis to disturb existing law and practices with regard to 
official time, which H.R. 1461 does. The GAO report found that the use 
of official time was value added to the agency and any bookkeeping 
failure on the part of DVA management would not be a legitimate basis 
on which to undermine the valuable contributions of employee 
representatives in the workplace.
    The GAO report confirms that official time is a valuable tool for 
facilitating employee input into the shared goal of improving the VA. 
Despite the numerous investigations undertaken by Congress, GAO, VA, 
and VA's OIG and other entities, the use of negotiated time for union 
representatives has never been found to be connected in any way to 
veteran waitlists, slow processing of veteran claims or any of the 
challenges identified over the years in VA. Instead, the facts show 
that official time is valued by both VA management and employees for 
problem-solving and improving the delivery of care and services to 
veterans. Participation of employees' elected representatives in 
improving the VA and adding value to VA and the whole federal 
government needs to continue so we can all accomplish the goal of 
providing the best services. We urge Congress and the Administration 
not to undermine a system that has a proven track record of success in 
improving government. Inclusion of employees' perspectives in efforts 
to make the VA a better workplace and a better healthcare system have 
proven their worth, and I ask that the committees present today 
recognize the importance of permitting this important work to continue.

Opposition to the use of Official Time

    Those who would like there to be no union representation in the 
Department of Veterans Affairs or in any other workplace, public or 
private, have tried to suggest that VA's understaffing problems could 
be eliminated if only there were no one involved in representation of 
bargaining unit employees. Of course, the numbers make this assertion 
ridiculous. As stated previously, it is estimated that the VA has in 
excess of 45,000 unfilled medical positions nationwide. Even if we 
assume that GAO's concerns about VA's recordkeeping with respect to the 
use of official time are valid and VA has perhaps understated the 
number of hours used annually, the numbers reported for 2015 are small: 
approximately 2.7 hours annually per bargaining unit employee. \5\ The 
number of hours reported to have been spent on official time throughout 
DVA, including the Veterans Health Administration (VHA), the Veterans 
Benefits Administration (VBA), and the National Cemetery Administration 
(NCA) was equivalent to no more than 508 FTE for bargaining units of 
nearly 300,000 in an agency with 350,000 employees.
---------------------------------------------------------------------------
    \5\ http://gao.gov/assets/690/682250.pdf page 13
---------------------------------------------------------------------------
    To attempt to place the blame for VA understaffing on this small 
element of the Department's operations is ludicrous. It would be just 
as appropriate to blame it on the number of people who work in the 
Office of Resolution Management (288), or the number in the General 
Counsel's Office (723), or the Office of the Deputy Assistant Secretary 
for Finance (869) or even the 537 who work in the Secretary's Office. 
\6\ If all of the people in these positions were transferred to the 
bedside of veterans, one could say that there were more people 
providing direct patient care. But the Department is an enterprise with 
many functional needs, and each of these offices perform necessary 
functions. No one is suggesting that the work of these offices should 
cease in order that incumbents be transferred to fill openings 
elsewhere. The function performed by union representatives is just as 
vital and important as any other Department function focused on support 
of veterans. To suggest otherwise is nothing more than a transparent 
effort to deny employees the union representation for which they have 
voted. And more important, it does a disservice to both the veterans 
who work at the Department and the veterans who rely on DVA's employees 
for the services they have earned.
---------------------------------------------------------------------------
    \6\ https://www.fedscope.opm.gov/ibmcognos/cgi-bin/cognosisapi.dll

---------------------------------------------------------------------------
Conclusion

    This Subcommittee held a hearing on February 16, 2107 at which it 
was acknowledged that the GAO report did recommend that the DVA improve 
its recordkeeping with regard to union representatives' use of the 
reasonable amounts of official time permitted to them. The report did 
not conclude that any of the provisions of H.R. 1461 were necessary or 
warranted. It identified no union failure or unwillingness to report 
use of official time to DVA management. And in no way did the report 
suggest that the use of official time presents problems for the 
Department. Instead, GAO that this Subcommittee reviewed confirms that 
both union and management representatives report positive outcomes as a 
result of allowing for time for union representation. Better decisions, 
better resolution of the inevitable problems that arise in a workplace, 
and improved relationships were all identified as benefits of the work 
of union representatives. And these benefits all accrue to the veterans 
we hold in such high esteem, the veterans to whose care we have devoted 
our careers.
    I ask the members of the committee to bear in mind that fully one 
third of the Department's workforce are veterans themselves. They have 
fought bravely for the freedoms we all cherish, and that includes the 
freedom to form, join and be represented by a union. Any effort to 
undermine these veterans' union rights should be vehemently opposed. 
The right to form and join a union is surely undermined if that union 
is prevented from exercising its representational duties because 
representation is the very purpose of the union. I thank you for the 
opportunity to submit this statement and I strongly urge the 
Subcommittee to reject H.R. 1461.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
